<html>
<title> - [H.A.S.C. No. 111-96]STATUS OF ONGOING U.S. EFFORTS IN IRAQ</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-96]
 
                     STATUS OF ONGOING U.S. EFFORTS
                                IN IRAQ

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 30, 2009


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
55-277                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, September 30, 2009, Status of Ongoing U.S. Efforts in 
  Iraq...........................................................     1

Appendix:

Wednesday, September 30, 2009....................................    45
                              ----------                              

                     WEDNESDAY, SEPTEMBER 30, 2009
                 STATUS OF ONGOING U.S. EFFORTS IN IRAQ
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Odierno, Gen. Ray, USA, Commanding General, Multi-National 
  Force--Iraq....................................................     4

                                APPENDIX

Prepared Statements:

    Odierno, Gen. Ray............................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Shea-Porter..............................................    65

Questions Submitted by Members Post Hearing:

    Mr. Turner...................................................    69
                 STATUS OF ONGOING U.S. EFFORTS IN IRAQ

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 30, 2009.
    The committee met, pursuant to call, at 10:05 a.m., in room 
HVC-210, The Capitol, Hon. Ike Skelton (chairman of the 
committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, today our committee 
meets to receive testimony on the status of ongoing U.S. 
operations in Iraq. Our witnesses today are General Ray 
Odierno, the Commanding General, Multi-National Force--Iraq 
(MNF--I); and the Honorable Michael Vickers, Assistant 
Secretary of Defense for Special Operations and Low Intensity 
Conflict.
    We welcome you, gentlemen.
    And, General Odierno, this is the first time I believe that 
you have appeared before this committee as such; is that 
correct?
    General Odierno. It is, Chairman.
    The Chairman. We certainly welcome you.
    On February 27, 2009, President Obama laid out a path for 
bringing to a close America's long war in Iraq that began with 
the invasion of March 20, 2003. America's men and women in 
uniform have fought heroically to help build a new Iraq, and 
over 4,300 Americans have died in that cause. We owe them our 
deep, deep gratitude.
    Right now the United States has about 120,000 to 130,000 
combat forces in Iraq and, under the current plan, will end 
this year with 11 combat brigades in Iraq, totally somewhere 
around 100,000 personnel. We will maintain that level through 
the Iraqi elections and for a period after the elections 
through the termination and formation of a new government.
    In August 2010, our combat mission in Iraq will end, and 
our force presence will consist of 6 advise and assist brigades 
with about 50,000 U.S. military personnel. These brigades and 
personnel will be slowly withdrawn until December 31, 2011, as 
required by the U.S.-Iraq status of forces agreement (SOFA). No 
U.S. military personnel will remain in Iraq.
    This readjustment in Iraq will not be an easy one for us 
and will not be easy, I suspect, for the Iraqis. Simply moving 
so many troops and so much equipment out of the country will be 
a significant logistical challenge. We have not conducted such 
a large movement over such a distance since Vietnam, and we all 
know that did not go well.
    As part of the drawdown, U.S. military commands will 
consolidate and begin handing over responsibility for a variety 
of activities to the Iraqis, the U.S. Embassy or other U.S. 
agencies. I hope our witnesses can address how the planning for 
this transition is going. For their part the Iraqis will have 
to assume full responsibility for internal security, and there 
are questions if they will be fully capable in that area by the 
time we leave.
    The Department of Defense (DOD) has requested authority to 
transfer some current U.S. military equipment to the Iraqi 
Security Forces (ISF), and I hope our witnesses will address 
that. Also, if they will take a minute to address potential 
future requests for assisting the Iraqis.
    The Iraqis will also have to come to an agreement on the 
future of the country, and elections in January may be crucial 
in helping them define that. They have not yet determined how 
the elections will be carried out, and it remains to be seen if 
the elections will reinforce sectarian divisions or help create 
a truly national government. All of us who watched in horror 
the ethnic violence of 2006 and 2007 dearly hope for the 
latter.
    Finally, the U.S. and Iraq will have to determine our 
future relationship. For many of you, January 1, 2012, is a 
date when our relations will transform instantly to a normal 
bilateral relationship. In some ways it will likely be true, 
but in other ways it just may not. Iraq will be incapable of 
providing fully for its external defense. Iraq may well 
continue to need help developing some aspects of its security 
forces. And we will continue to have interest in ensuring a 
stable Iraq that doesn't threaten its neighbors or undermine 
other regional goals.
    I don't expect our witnesses here today to have all the 
answers to the questions. The war in Iraq is coming to a close, 
but my suspicion is that these transitions will take years to 
work through.
    This is the first time this general has appeared before the 
House Armed Services Committee, but my guess is, General, that 
you will be with us many more times in the days ahead.
    The Chairman. Now I turn to my good friend, the gentleman 
from California, our Ranking Member Buck McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. And welcome to our 
witnesses.
    It is great to have you here, General Odierno. We really 
appreciate you taking the time to be here today. Please pass on 
to all the men and women in your command how much we are proud 
of their achievements and how much we appreciate their service.
    This is a timely hearing. While the focus in Washington is 
shifted to Afghanistan, we can't lose sight of the enormous 
challenges before us in Iraq. We have made remarkable progress 
in Iraq. Violence continues to stay at a level comparable to 
2003. The provincial elections earlier in the year were a 
success, and the SOFA agreement has held together. Most 
recently, in June, the Iraqi Security Forces assumed primary 
security responsibility within Iraqi cities, and the U.S. 
combat forces departed the last remaining cities.
    The issue, therefore, is not whether we have won the war, 
but whether we will win the peace in Iraq. With national 
elections set for January, a referendum on the SOFA on the 
horizon, as well as other significant unresolved political 
hurdles like the status of Kirkuk, there are many unknowns that 
will determine the prospect of enduring domestic peace in Iraq.
    In parallel with Iraq's demanding political calendar, the 
President's February 2009 plan calls for a dramatic reduction 
to the U.S. footprint in Iraq by August 2010. By next summer 
the President plans to decrease our troop strength by 60 
percent, in addition to closing bases and moving material out 
of the theater.
    This leads to some basic questions. First, is it still safe 
to assume that the Iraqi Security Forces will be able to assume 
security responsibility, and that electoral politics will not 
trigger sectarian violence? These are the assumptions 
underpinning the President's plan. This plan arguably made 
sense in February. Does it still make sense today? Many of us 
here have consistently held the position that scheduling troop 
withdrawals in Iraq should be based on the conditions on the 
ground. General, we would like to hear from you on this 
subject. Do we have contingency plans in the event the security 
situation demands revisiting the August 2010 timeline? I am 
concerned we may be biting off more than we can chew in Iraq.
    As we begin executing the President's redeployment plan, we 
also need to keep an eye on the future. What do we want the 
U.S.-Iraqi bilateral relationship to look like? This leads me 
to concerns about the normalization of our relations with Iraq. 
After all, we have invested in Iraq, we should be taking steps 
to ensure that we pursue a robust security relationship with 
Baghdad. Our increase in combat forces was not the only reason 
the surge was successful; rather, Ambassador Crocker and 
General Petraeus knew how to leverage our presence to ensure 
Iraqi leadership made the right choices. I am concerned that we 
may be retreating from this posture too quickly in an effort to 
normalize our relationship with Iraq. We must remember this is 
an embryonic democracy.
    As much as the situation in Iraq has improved, I think it 
is fair to say the situation is far from normal. So as long as 
we have a force presence in Iraq, our leadership should 
continue to improve itself in Iraqi political--involve itself 
in Iraqi political affairs to ensure the right decisions are 
made. Robust engagement seems to be the key to a redeployment 
plan.
    Beyond the strategic and political military concerns, there 
are a host of issues ranging from operational implementation of 
the advisory and assist brigades to the enormous logistical 
challenges of moving all of our equipment out of Iraq. 
Accomplishing this all in such a narrow window of time is a 
Herculean task even if we did not face what you rightly call 
drivers of instability.
    I hope we can discuss these issues over the course of the 
hearing. I look forward to a candid discussion on these 
important issues. And again, thank you, General, for being here 
this morning.
    I yield back.
    The Chairman. I thank the gentleman.
    I seek unanimous consent that Representative Kilpatrick be 
allowed to participate in our committee this morning. The 
gentlelady just returned from the Middle East, and we welcome 
her. Without objection.
    Now, as I understand it, Assistant Secretary Vickers has 
not submitted a written testimony and will not be making an 
opening statement. Is that correct?
    Mr. Vickers. That is correct, Mr. Chairman.
    The Chairman. Thank you.
    So, General Odierno, the floor is yours, and we welcome you 
and congratulate you for the excellent work that you are doing.

 STATEMENT OF GEN. RAY ODIERNO, USA, COMMANDING GENERAL, MULTI-
                      NATIONAL FORCE--IRAQ

    General Odierno. Chairman Skelton, Congressman McKeon and 
distinguished members of the committee, thank you for providing 
me the opportunity today to appear before you to provide my 
assessment of the current situation, the challenges in Iraq, 
and how our strategy is adapting in order to achieve the 
President's vision.
    First, I just want to tell you what a great honor it is to 
command Multi-National Force--Iraq. Having now spent a 
significant amount of time in Iraq, I remain encouraged by the 
steady and deliberate progress that has been made particularly 
over the past 2\1/2\ years. Operation Iraqi Freedom (OIF), as 
you all know, is now in its sixth consecutive year, and it has 
been a complex and challenging mission in a continuously 
evolving environment. But the one thing that remains constant 
is the demonstrated courage, compassion, and commitment of our 
soldiers, sailors, airmen, marines, coastguardsmen, and 
civilians who continue to selflessly serve. I am humbled by the 
opportunity to serve with and privileged to lead these great 
Americans. And I also want to recognize the families of our 
service members who have sacrificed so much, yet continue to 
give their unwavering support in order to allow our service men 
and women the ability to focus on the mission at hand.
    Although challenges remain in Iraq, with the continued 
support of Congress and the American people, I believe we are 
now in reach of our goals.
    As we all know, Iraq is strategically located in the Middle 
East and remains vital to stability in this region. It has 
always played a significant role in regional security dynamics, 
but too often in the past Iraq has been a source of instability 
rather than stability. Today with our help Iraq, is slowly 
reestablishing diplomatic, economic, and security relationships 
with all its neighbors.
    As a developing democracy in the heart of the Middle East, 
Iraq has formalized its relationship with the United States. 
This past January our country has implemented two historic 
bilateral agreements establishing the foundation for a long-
term, comprehensive, strategic partnership. Together the 
Security Agreement and the Strategic Framework Agreement 
demonstrate America's continued commitment to Iraq, its people, 
and stability in the region, and they also reflect the maturing 
relationship and enhanced cooperation between our two nations.
    The Strategic Framework Agreement establishes the 
foundation and mechanisms for an enduring relationship between 
Iraq and the United States through long-term cooperation in a 
variety of areas, including security, technological, 
educational, and cultural exchanges, just to name a few. The 
Security Agreement focuses on our current military relationship 
within the context of Iraqi sovereignty by regulating the 
temporary presence and activities of U.S. forces in Iraq and 
directing the withdrawal of our forces from Iraq by December 
31, 2011.
    Since implementing the security agreement this past 
January, we have conducted all military operations by, with, 
and through the Iraqi Security Forces operating within the 
Iraqi rule of law. I am extremely proud of how our leaders and 
service members at all levels adapted quickly and quickly 
adjusting our mind-set and operations in order to maintain 
operational momentum within the framework of the Security 
Agreement.
    In line with the security agreement on June 30, 2009, the 
Iraqi Security Forces assumed primary responsibilities within 
the cities, and U.S. combat forces departed the last remaining 
cities. June 30th was a major milestone for the Government of 
Iraq, its security forces, and the Iraqi people, and a first 
step in the Iraqi Security Forces assuming full control of 
security in Iraq.
    The positive psychological impact has been profound. The 
Iraqis wanted to be in charge, they wanted the responsibility, 
and they have demonstrated that they are capable. After some 
initial coordination issues immediately following 30 June, the 
strong partnerships that we have developed over the last 
several years in particular have grown even stronger.
    Today, nine months after we began implementing the Security 
Agreement and three months after U.S. combat forces departed 
the cities, we continue to make consistent, deliberate progress 
in improving the security environment in Iraq. The combined, 
sustained efforts of U.S. and Iraqi Security Forces coupled 
with the efforts of our civilian partners have reduced security 
incidents and attacks of all types to levels on par with the 
summer of 2003.
    While statistics do not paint the whole picture, they help 
provide some context in understanding the progress made to 
date. In the charts before you, we use six-month increments to 
specifically highlight the trends in both events and casualties 
over time. The security incidents chart displayed here clearly 
shows the improving trends across all types of attacks and 
incidents. Overall attacks have decreased 85 percent over the 
past 2 years, from 4,064 in August of 2007 to 594 in August of 
2009, with 565 attacks through 28 September. In that same time 
period, U.S. military deaths have decreased by 93 percent, 
Iraqi Security Force deaths have decreased by 79 percent, and 
ethnosectarian deaths have decreased 88 percent. In fact, there 
is another noticeable decrease in ethnosectarian incidents, 
specifically during Ramadan, which has always reflected a sharp 
increase in insurgent and extremist activity. This year there 
are only 19 ethnosectarian incidents compared to 978 in 2006. 
Additionally, improvised explosive device explosions have 
decreased 74 percent.
    But improvised explosive devices (IEDs) remain the weapons 
of choice of the insurgents and terrorists inside of Iraq. The 
second chart shows high-profile explosions that are 
specifically intended to have a large impact. You can see the 
steady decrease even after the Iraqis assumed responsibility in 
the cities. But these high-profile attacks remain a concern, 
especially following the two bombings in Baghdad on 19 August, 
which targeted the Ministries of Finance and Foreign Affairs. 
These were horrific attacks claimed and perpetrated by al Qaeda 
in Iraq and aimed specifically against the Government of Iraq's 
institutions in order to undermine the public's faith and 
confidence in the Government of Iraq.
    There was a clear security lapse on 19 August in Baghdad, 
but I do not believe it is the result of any systemic problems, 
and I remain confident that the Iraqi Security Forces continue 
to learn, improve, and adjust. After the 19 August attacks, the 
Government of Iraq responded promptly and effectively. They 
reassessed security measures, made adjustments, and increased 
operations, aggressively enhancing security in the cities, all 
enabled by U.S. forces, and they continue to reassess their 
security posture.
    The Government of Iraq leaders reinforced national unity, 
and the people responded. To date the extremist efforts to 
destabilize Iraq have failed. The overwhelming majority of the 
Iraqi people reject extremism. We have seen no indications of a 
return to the sectarian violence that plagued Iraq in 2006 and 
2007.
    Let me now take a little bit of time to discuss the Iraqi 
Security Forces. Overall the professionalism and operational 
effectiveness of the approximately 663,000-strong Iraqi 
Security Forces, including 245,000 soldiers and 407,000 police, 
continue to improve, thus both bolstering public confidence and 
trust in the Iraqi Security Forces. Supported by U.S. forces, 
the Iraqi Security Forces recently provided safe and secure 
environments for two mass Shi'a pilgrimages in July and August 
in which millions of pilgrims participated and transited 
throughout Iraq.
    We continue to see signs of normalcy returning to Iraq. 
Recently the first international soccer match was held in 
Baghdad with over 50,000 people in attendance. And just last 
week I witnessed thousands of Iraqis in the parks and streets 
across Baghdad celebrating Eid, which is another indicator of 
the growing confidence in the Iraqi Security Forces, especially 
following the Baghdad bombings just one month prior. You can 
honestly feel a difference amongst the people in Baghdad and 
around a large majority of Iraq.
    The Iraqi Army and Federal Police continue to improve 
counterinsurgency implementation, planning, and execution. In 
some cases police primacy has been established in the cities, 
but this is still a work in progress. The NATO Training 
Mission--Iraq continues to focus on institutional training for 
the Iraqi Security Forces, enhancing the long-term 
professionalism. Although small, improvement continues in 
logistics and the sharing and integration of intelligence and 
operations. The Regional Operation Centers and Provincial Joint 
Coordination Centers continue to improve.
    The Iraqi Security Forces are now in the lead across the 
entire country with U.S. forces, advising and assisting and 
enabling operations in the cities, and providing full-spectrum 
partnership outside of the cities. The Iraqi Security Forces 
are conducting more and more precision intelligence-driven 
operations, most of which are unilateral U.S.-enabled 
operations relying on U.S. intelligence, surveillance and 
reconnaissance (ISR), communications, and some aviation and 
logistical support. We are seeing improved integration of 
Government of Iraq human intelligence and U.S. technical 
intelligence. Outside the cities Iraqi Security Forces continue 
a combination of independent, U.S.-enabled and U.S.-partnered 
full-spectrum operations.
    In addition, we continue to see strides in Government of 
Iraq counterterrorism operations. In May, we began national 
integrated operations with Iraqi Special Operations Forces 
facilitated by an Iraqi Operations Coordination Group, a 
standing Iraqi interagency organization collocated with U.S. 
counterterrorism forces. Every day we conduct jointly planned 
and executed counterterrorism operations with increasing 
operational tempo (OPTEMPO) in results.
    I believe that by 2011, the Government of Iraq will have a 
national counterterrorism force capable of dealing with a 
variety of extremist threats. Just in the last week, we have 
jointly arrested 90 high-value individuals, including 52 al 
Qaeda in Iraq, 23 Shi'a extremists, and 15 Sunni insurgents and 
ex-Baathists. Since 2006, we have systematically decreased the 
number of foreign fighters entering Iraq and significantly 
reduced al Qaeda in Iraq (AQI) to a small ideological core that 
recruits disenfranchised Iraqis and criminals.
    In the north AQI and some remnants of Sunni insurgent 
groups continue in their attempt to reestablish a foothold with 
the objective of expanding back into Anbar and Baghdad. We are 
working with Iraqi Security Forces to establish a defense in 
depth across Iraq with Iraqi Security Forces in the cities and 
U.S. forces conducting partner full-spectrum operations in the 
surrounding belts and along the borders to deny extremists safe 
havens and reduce the flow of foreign fighters and lethal aid 
into Iraq.
    We believe the Iraqi Security Forces will develop the 
capacity to conduct internal and basic external defense over 
the next 2\1/2\ years as we continue to draw down our forces. 
As most of you are aware, the Sons of Iraq program succeeded in 
drawing many out of the insurgency, giving them the opportunity 
to serve in their communities and earn salaries to support 
their families. In April, the Government of Iraq assumed full 
responsibility for the Sons of Iraq program. Over 23,000 former 
Sons of Iraq have transitioned to the Iraqi Security Forces and 
other nonsecurity employment since 2008, including over 5,500 
in Baghdad over the last two months. In October, 5,000 more 
will transition in Baghdad. Despite budget cuts across the 
Government of Iraq, GOI has maintained funding for this 
program, understanding its importance not only to security, but 
also to building greater trust between the Sunni community and 
the government. Sons of Iraq payments through the summer are 
complete, and September pay is ongoing by the Government of 
Iraq. The Government of Iraq's goal is to integrate all of the 
Sons of Iraq into the ministries by the end of this year. I do 
not believe they will meet this timeline, but I do believe they 
will continue to execute the program in 2010 until it is 
complete. We will continue to monitor the progress of this 
program very closely.
    In January, Iraqi's Independent High Electoral Commission 
orchestrated successful provincial elections in which all Iraqi 
sects and ethnicities participated and voted out also many of 
the incumbents since they failed to deliver tangible results 
and rejected those who were overtly supportive by Iran. The 
United Nations Assistance Mission in Iraq (UNAMI) and 
international observers deem these elections credible and 
legitimate, and the seating of the provincial government 
happened peacefully.
    In July, Iraqis experienced another milestone with the 
Kurdistan regional government (KRG) elections, with over 78 
percent voter turnout of the approximately 2.5 million eligible 
voters in the Kurdistan region. Kurds voted in their first 
direct and open election for the KRG President. President 
Masoud Barzani was elected with 70 percent of the votes. Voters 
also signaled a desire for change with the success of the 
Change List, which won 21 percent of the KRG Parliament, a 
moderate loss to the Kurdistan Alliance. On 20 August, 2009, 
the KRG Parliament and President were peacefully seated.
    Although security is improving, it is not yet enduring. 
There still remain underlying, unresolved sources of potential 
conflict. I call these drivers of instability. From the 
beginning security in Iraq has been a complex problem that has 
required nuanced, evolving approaches, and our strategy has 
reflected this. In this environment, we cannot focus on 
immediate and traditional security threats alone, especially as 
the United States continues to assist Iraq in rebuilding the 
foundations of the security, civil, political, and economic 
institutions.
    We continue to assist the Government of Iraq in addressing 
and finding ways to mitigate these root causes of instability. 
Current drivers of instability include communal and factional 
struggles for power and resources, insufficient Government of 
Iraq capacity, violent extremist groups, and interference from 
external state and nonstate actors.
    Iraq is a nascent democracy emerging from 30 years of 
authoritarian rule based on ethnosectarian privilege. Its 
future as a stable multiethnic representative state rests upon 
its ability to deal with a myriad of these challenges, and some 
of these issues will take time to resolve.
    The national elections in January of 2010 are critical to 
determining the path that Iraq will take into the future. The 
rules of the game are being debated in the Council of 
Representatives today. Having just returned yesterday from the 
Eid holiday, they have a condensed timeline to pass an election 
law and many issues to discuss, including Kirkuk, open versus 
closed lists, and a single versus multiple district election. 
There is a potential to build a competent, capable 
representative government, but there is also the potential to 
exacerbate societal divisions by appointing people based on 
their affiliations rather than their abilities.
    Even as the Iraqi political system continues to mature, 
there is not yet consensus on the exact nature of Iraq's 
representative government, one that is accepted across ethnic, 
sectarian, and regional lines. Issues include the role and 
power of the central Iraqi Government vis-a-vis the provinces, 
the integration and balance of ethnic and sectarian groups 
within the government, revenue sharing, and long-standing Arab-
Kurd issues.
    Iraqi Government institutions continue to evolve, and their 
ability to provide essential services is improving, yet it will 
take time to develop the institutional process and bureaucratic 
expertise necessary to sustain programs over time. Also, 
decades of infrastructural neglect require substantial capital 
investment, and a recent decline in the price of oil, the 
mainstay of the economy, has resulted in budget shortfalls 
negatively impacting the Government of Iraq's ability to fund 
its many requirements.
    While endemic corruption and mismanagement persist, the 
Government of Iraq continues to focus on anticorruption 
efforts, and there has been some progress in developing a 
culture of accountability for government officials.
    Despite their increased capacity and progress in providing 
security, the Iraqi Security Forces continue to face 
shortcomings and budget constraints due in part to the 
declining oil revenues that affect their current and future 
operational capacity, including logistical support across the 
ministries. We continue to assist and advise the Ministries of 
Defense and Interior as they prioritize the minimum essential 
capabilities for a foundational defense capability, land, sea, 
and air, before the withdrawal of U.S. forces in December of 
2011. Critical gaps remain in controlling and protecting Iraqi 
ground airspace and territorial waters.
    In Iraq, much of the struggles are about power, land, and 
resources, which is reflective in the Arab-Kurd and Government 
of Iraq-Kurdistan regional government tensions. The key issues 
include the pending hydrocarbon law, revenue sharing, and the 
disputed internal boundaries, including areas in Ninawa 
Province, Diyala Province, and Kirkuk Province. We strongly 
support the United Nations Assistance Mission in Iraq process 
promoting political dialogue and resolution of these key 
issues.
    Violent external groups and external influences take 
advantage of seams within Iraq, such as the Arab-Kurd tensions. 
Al Qaeda in Iraq, Sunni extremist groups, and Shi'a militant 
groups continue to pose threats to stability as they seek to 
exploit political fissures, destabilize the Government of Iraq, 
and undermine the progress made to date. Interference from 
external actors continues to exacerbate the security situation 
with Iraq through either tacit or direct support to extremists 
and proxy groups. Both enhanced security and diplomatic 
measures are required to secure Iraq's borders with Iran and 
Syria.
    As outlined by the President on 1 September, 2010, 11 
months from now our combat mission will end. Our transition 
force in Iraq will then focus on training and advising Iraqi 
Security Forces; conducting targeted counterterrorism missions 
by, with and through the Iraqis; protecting U.S. forces and 
others operating around the country, while providing support to 
civil capacity-building missions with our interagency partners 
as well as the United Nations.
    We are reducing our footprint in Iraq by about 60 percent 
to an initial strength of 50,000 boots on the ground by 31 
August, 2010. Our transition force will consist of three 
division headquarters and six advise and assist brigades, which 
were specifically tailored to support Iraqi civil development. 
We have already begun deliberately drawing down our forces 
without sacrificing security. From over 143,500 troops and 14 
brigade combat teams on the ground in January, we have 
approximately 124,000 troops and 11 brigade combat teams (BCTs) 
operating in Iraq today. By the end of October, I believe we 
will be down to 120,000 troops in Iraq. As we go forward we 
will thin our lines across Iraq in order to reduce the risk and 
sustain stability through a deliberate transition of 
responsibilities to the Iraqi Security Forces.
    We have already reduced our base footprint by over 200 
bases so far and will continue to close bases deliberately and 
systematically in Iraq. We have also reduced our contractor 
footprint from 149,000 in January to just over 115,000 
contractors today, saving over $441 million this year. On 1 
January, 2010, we will also combine six headquarters elements 
of Multi-National Force--Iraq into a single headquarters called 
United States Forces--Iraq. This will reduce our headquarters 
force structure by 40 percent, while maintaining the overall 
capacity to command and control the force as we transition more 
and more responsibility to the Government of Iraq through the 
end of mission in 2011.
    Over the course of this campaign, nonlethal operations have 
been critical to our success. As we change our mission and 
continue to draw down, they will become even more vital. I am 
referring specifically the Commander's Emergency Response 
Program (CERP) and Information Operations, both of which have 
paid huge dividends so far.
    This past spring, following the seating of the provincial 
governments, Multi-National Force--Iraq in concert with the 
State Department-led provincial reconstruction teams (PRTs) and 
the newly elected Iraqi provincial leaders focused CERP monies 
on projects designed to meet the essential needs of the Iraqi 
people, sustain security gains, and support provincial 
governance development.
    CERP remains a critical enabler that we are using 
judiciously. In June, we returned $247 million of CERP money, 
and at the end of the year we will return another $135 million 
of CERP money. As we begin our responsible drawdown of forces 
and change of mission in mid- to late-fiscal year 2010 through 
fiscal year 2011, we expect our need for CERP to reduce; 
however, CERP will remain a critical enabler for stabilization, 
and our CERP expenditures in the future will remain within the 
20 approved categories that have already been discussed.
    Information Operations has also been a vital component of 
our overall operations in defeating violent extremist groups 
who themselves use emerging media conduits to recruit, solicit 
funding, and share their ideology. Our Information Operations 
have complemented our lethal operations and helped save lives, 
contributed to host nation stability, promoted support for 
democratic processes and the rule of law, and reduced the level 
of violence, yet we are engaged with adversaries who continue 
to exploit the information space to try and reverse our gains. 
So I cannot overstate the importance of Information Operations 
in achieving our national goals in Iraq.
    Over the years, the environment and threat have changed, 
and we have continuously adapted our strategy from focusing on 
protecting the people in a counterinsurgency fight to 
concentrating on developing Iraqi capacity. Today, given the 
hard-fought security gains, we are transitioning to stability 
operations, and we will continue to responsibly transfer 
responsibilities to the Government of Iraq, the Iraqi Security 
Forces, and the U.S. Embassy in Baghdad.
    Though the focus of our forces is shifting from security to 
capacity building, our strategic goal remains to foster a long-
term partnership with a sovereign, stable, self-reliant Iraq. 
We have a good plan that we are executing, and I am confident 
in our way ahead.
    Iraq is a state and a society under construction, 
struggling to define its identity and its place in the world 
after decades of oppression and violence. The way in which we 
draw down our forces will impact not only the relationship 
between U.S. and Iraq into the future, but also the nature of 
the new Iraq. Our presence through 2011 provides psychological 
and physical support to the Iraqi people, the Government of 
Iraq and the Iraqi Security Forces. It provides the opportunity 
for different groups to build up their constituencies, to 
participate in politics, to form alliances, and to reach 
consensus. The level and nature of U.S. engagement with the 
Iraqis will continue to change as the U.S. military draws down.
    Iraq is making steady progress, but has a long way to go. 
We must have strategic patience. Through the Strategic 
Framework Agreement, the United States has a mechanism for 
supporting Iraq to develop its institutional and human 
capacity. Success will be defined by our ability to support 
Iraq's developing institutional capacity, from governance to 
economics, that will sustain Iraq's long-term stability. The 
Iraqi Security Forces have made steady progress, and our 
efforts over the next 2\1/2\ years will help solidify the 
foundation of a professional and competent Iraqi Security 
Forces. We must leave Iraq with security forces capable of 
defending the Iraqi people and protecting their institutions.
    I close as I began, by recognizing the soldiers, sailors, 
airmen, marines, coastguardsmen, and civilians currently 
serving in Iraq. These great patriots and their families have 
made tremendous sacrifices on behalf of our Nation. They have 
made a positive difference in the lives of millions of all 
Americans--excuse me, they have made positive differences in 
the lives of millions, and all Americans should take pride in 
their accomplishments.
    Not long ago Iraq was a society burdened by a seemingly 
endless cycle of violence and destruction. Today it is buoyed 
by a tremendous sense of hope for a bright and prosperous 
future as Iraqis prepare for their national elections, 
elections that will determine the future direction of Iraq. 
Having demonstrated tremendous resiliency, I believe the Iraqi 
people are determined to make Iraq something very different 
from what it once was. And we have invested an awful lot in 
Iraq, both from a monetary standpoint and from our personal 
investment of the many lives of those who have been killed and 
injured in Iraq, and I think we have a true opportunity to have 
success. So it is important I think that we continue along the 
line we are.
    So thank you so much for the support that you have given us 
in the past and the support that I expect you will continue to 
give us as we move forward.
    Thank you very much, Mr. Chairman.
    The Chairman. General, thank you for your very thorough and 
positive report to us, and we welcome your presence here today, 
and thank you for your great contribution.
    [The prepared statement of General Odierno can be found in 
the Appendix on page 49.]
    The Chairman. General, in your opinion, how fast can we 
responsibly redeploy our troops from that country? And as you 
know, our military has been greatly stressed over the past 
several years, and we potentially face increased demand for 
troops in Afghanistan. So what are the risks in speeding up the 
redeployment of troops from Iraq?
    General Odierno. Again, as we continue to look at the 
competing demands--first, my responsibility, as you stated, Mr. 
Chairman, is to present to my chain of command what the risks 
are inside of Iraq as we draw down our forces. And as I stated, 
the important part is that we do not want to lose the security 
progress that has been made. The physical and psychological 
presence of U.S. forces help significantly as Iraq continues to 
move forward. So what we don't want to do is we don't want to 
see what I mention as the drivers of instability cause a 
reduction in the confidence of the Iraqi people in moving 
forward with developing their nascent democracy. So we have to 
ensure that we don't take enough risk where ethnosectarian 
violence is able to continue, for example, over Arab-Kurd 
tensions, or that we don't allow al Qaeda and some of the 
outside external influences by Iran and others to cause 
violence inside of Iraq that will cause the Iraqi political 
system to fall.
    So those are the risks. The plan we have I believe allows 
us to withdraw deliberately and maintain what I believe is an 
appropriate level of security that the Iraqi Security Forces 
ultimately can sustain and continue to improve.
    That said, we work very carefully--I work very carefully 
with General Petraeus in order to identify any capabilities 
that we have and no longer need that can be used in 
Afghanistan. We have done that over the last several months, 
and we will continue to do that. We will not require--within 
our plan I have flexibility to speed up if I think the 
situation on the ground allows it or to slow down, and I will 
continue to make those judgments as we move forward.
    As I announced, we will probably be down to about 120,000 
strength by the end of October. That is a bit faster than we 
originally planned, and that is based on the improvement that 
we have seen out in Anbar Province where we have now replaced 
two brigades with one brigade out in Anbar. And so we are able 
to make those decisions as we see progress on the ground, and 
we will continue to do that. So what I have to do is delicately 
do this without losing the gains we have made, while 
understanding I cannot have forces there that are not being 
used efficiently.
    The Chairman. General, the country of Iran has been in the 
news a great deal lately. What influence does that country have 
on your efforts in Iraq?
    General Odierno. Well, obviously, as a neighbor Iran--all 
neighboring countries have influences inside of Iraq. What we 
want overall obviously is an Iran that wants to have positive 
influence inside of Iraq. Unfortunately we still see some 
malign intent with Iran as we continue to see training 
conducted in Iran of Iranian surrogates that now then come back 
into Iraq. We still continue to uncover large caches of 
rockets, rails to shoot rockets, and some explosively formed 
projectiles that are made in Iran. We continue to see the 
potential interference in the political process inside of Iraq. 
So those obviously are concerns.
    The good part about this is that the Iraqi Security Forces 
are uncovering many of these elements in southern Iraq. They 
have continued to go after these caches and individuals that 
have been trained inside of Iran, so that is a positive aspect. 
But it is still very much a concern that they continue to fund 
and conduct operations of surrogate elements inside of Iraq.
    The Chairman. It appears that the future pole star for 
success in Iraq is the upcoming elections. From your vantage 
point today, do you see that in a positive light?
    General Odierno. I think these elections are extremely 
important for the Government of Iraq, and I do believe that 
they will occur in a safe manner as I look at it today.
    The important part about these elections is that this is 
the first election that will be conducted fully by the Iraqis. 
They will be conducted by the Iraqi High Electoral Commission. 
And this election will be conducted and secured by Iraqis with 
our just training and advice and assistance. We will see, I 
believe, a turnout among all Iraqi elements, all religious 
groups, all people from all areas of Iraq. So I think it will 
be critical to the future of Iraq.
    We are seeing many coalitions form. The last count, there 
were almost 300 political parties that have registered for 
these elections. I think that is important to show how much 
these elections mean to the Iraqi people and the interest that 
has been shown.
    And so I believe that these elections will occur. They will 
occur on time. Hopefully the Iraqis will pass an election law 
here in the next several days. We know they are working very 
hard to do that. These elections are important. Those who are 
elected will set the stage for Iraq over the next several 
years, whether they continue to move towards democratic process 
in an open economy or not. And so these will be very important 
elections for Iraq and the future of Iraq.
    The Chairman. Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Thank you again, General, for your statement. And you know 
as well as anyone the sacrifice our country has made in 
bringing stability to Iraq.
    Either satisfied with success or anxious to focus 
elsewhere, many in Washington are pushing to move on from Iraq. 
I am worried that that has led some to dismiss the strategic 
importance of Iraq. Please state for the American people what 
is at stake in Iraq, explain why it is in the national security 
interest to keep combat forces there until September 2010, and 
why it is necessary to keep a residual force in Iraq until the 
end of 2011 and even beyond.
    General Odierno. Thank you, Congressman McKeon.
    I would just say as you just look at the geographic 
location of Iraq, you notice the strategic importance of it. It 
is strategically placed within the Middle East. It is centered 
in between Iran and--the Persian Shi'a Iran and the Sunni Arab 
west and southern partners. And Iraq has always been a country 
that represents all of the Middle East with its population.
    Iraq is moving towards a nascent democracy and wants to 
move towards an open economy, and the ability that it would 
have to potentially contribute to stability in the Middle East 
in the long term, in my mind, is strategically important to us, 
and we can't lose sight of that. We have an opportunity here to 
have a long-term strategic partner.
    To the Iraqis the Strategic Framework Agreement, which I 
discussed in my opening statement, is extremely important to 
them because that will help to develop a long-term relationship 
with the United States, an economic relationship, a security 
relationship, an educational relationship, technological 
exchanges. That is important to them as they want to move 
forward as a country that is respected, has a democracy, and 
can continue to develop its own economy with the vast resources 
that it has available to it, but it has yet been able to take 
advantage of. And so I think for those factors it is important 
for us to stay engaged.
    We have spent--as I said earlier, we have spent a lot of 
money, and I know you all know that. We have spent a lot of 
personal sacrifice inside of Iraq. And security is headed in 
the right direction. We don't want to lose that. We want to 
give them the time and the space to continue this development. 
So by leaving our combat forces in there until September 1, 
2010, allows them to go through their elections, allows them to 
seat their new government. And then allowing forces to stay 
there through 2011 allows them to continue to build their civil 
capacity so we can take advantage of the opportunities that we 
think Iraq brings to stability in the Middle East.
    Mr. McKeon. Thank you, General.
    Every four years we hold an election to determine our 
President. We do that in November. And we understand that the 
President is sworn in in January, and it seems to be a very--
for a couple of hundred years we have done that very, very 
well. Maybe you could explain the timeline of how their 
election works. They have a different system of government. And 
the election will be held in January, but it will take a while 
to establish a government. Perhaps you could explain that.
    General Odierno. Congressman, I will walk through it in 
general terms. First, again, by the Constitution, the election 
is supposed to occur no later than the 31st of January. Right 
now it is scheduled for the 16th of January, again pending the 
passing of the election law. Once the election is completed, 
they take 45 days to certify the results of the election. And 
so what happens is we will have hundreds of international 
observers, maybe thousands. There is going to be quite a few 
international observers, as well as the Iraqi High Electoral 
Commission will certify the results. They will take all 
complaints, and then they will deem the elections to be 
credible, legitimate or not.
    That takes 45 days. Once that happens, you then have 30 
days to begin the formation of seating the Council of 
Representatives. You then have another 30 days to select the 
leadership, the Presidency, and then you have another time 
period to select the Prime Minister and then the Speaker. So 
within that time period, we expect that it will take from 
January to June or so, maybe July, to seat the new government. 
In 2005, following the elections, the government--the elections 
were in December, and the government was seated in May of 2005. 
This is the parliamentary system of government, and it just 
takes time for them to do this. So there is timelines on it. 
They will follow those timelines strictly, but it will take 
time to seat that government.
    Mr. McKeon. Based on that timeline, then, you are 
comfortable with keeping combat troops in the country until 
August, and that will be sufficient, and you are comfortable 
with being able to pull them out securely at that time?
    General Odierno. I do. I look at the first 60 days or so 
following the election as maybe the most critical time if we 
think there might be some sort of violence following the 
election as the results are certified. Our experiences in the 
past have been if within the 60 days, that is when you would 
see some level of violence. So that allows us, I think, to make 
sure that we believe this will be a peaceful transition of 
power, which we expect. But that will allow us to ensure this 
peaceful transition of power, and then allow us to draw down as 
they seat the government--draw down to a level of 50,000 by the 
end of August.
    Mr. McKeon. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    General, Mr. Secretary, thank you so much. We appreciate 
your service.
    You know, the Government Accountability Office (GAO) has 
suggested that there is a breakdown between U.S. Transportation 
Command (TRANSCOM) and the Army Central Command (CENTCOM) on 
the movement of equipment out of Iraq. For example, the GAO 
stated that a thorough inventory of equipment has not been 
completed, nor have any communicated--have they communicated 
with each other on how they are going to accelerate the 
movement of troops out of Iraq. In your opinion, are you 
concerned that this will increase the time required for all 
redeployment of forces and ultimately impact unit readiness? 
And do our forces in Kuwait have the forces available to 
support an accelerated redeployment of our troops out of Iraq? 
And what role, if any, will Turkey play in the redeployment of 
forces? And maybe you can give us a little----
    General Odierno. Thank you, Congressman. I can answer some 
of those questions, and I will.
    First off, we have been planning for the redeployment of 
forces and equipment for some time now. In Iraq I have a cell 
that has been established now for about six months that has 
representatives from CENTCOM, from the Army, Navy, Air Force, 
Marines, that we are coordinating the movement of all equipment 
and personnel out of the theater.
    We have done a complete inventory of all the equipment that 
is in Iraq. We understand what we have in Iraq. And that 
immediately within the cell gets transmitted back to the 
services and to CENTCOM in order for them to decide how this 
equipment will be distributed, whether it comes back to the 
United States, whether it goes somewhere else.
    So I feel confident that we have a good handle on this. We 
have already started moving equipment out that we believe is no 
longer needed based on the withdrawal of some of our forces 
already, and also on the change in mission that we have. And we 
have already sent out over 150,000 pieces of equipment from 
Iraq. So we continue to do this on a regular basis.
    We plan on in some ways using--we have taken a look at 
equipment going through Turkey, as well as Jordan, as well as 
Kuwait. And we have actually--we are now actually sending some 
equipment through Jordan as well as through Kuwait. We 
coordinate very carefully with Army Central Command, who is 
responsible for the logistics support inside of Kuwait. They 
also are represented in the cell that we have established, and 
we know what their capacity is. We have planned this in such a 
way where our redeployment fits within the capacity that is 
established in Kuwait for both people and equipment.
    Mr. Ortiz. And I know that for some years back you were 
utilizing a lot of the National Guard equipment and Reserve 
equipment because of the damage to some of the regular Army 
equipment. You still have a lot of equipment that belongs to 
the National Guard and Reserve in Iraq?
    General Odierno. Congressman, I can't tell you exactly how 
much we have, but over the years, as we have deployed and 
redeployed units out of Iraq, we continue to rotate equipment 
through Iraq, depending on its usage and its wear, as you 
pointed out. So I don't know the exact figure, but I am certain 
there is National Guard equipment inside of Iraq.
    So what will happen is, again, we have identified all this 
equipment that is transmitted back to the services; and most of 
it is Army equipment. So most of it back to the Army, through 
Army Materiel Command, and they then will provide us 
distribution instructions.
    And, actually, it goes to our--we will ship the equipment 
to Kuwait or Jordan, and then they will ship it back and send 
it back to the units of its origin or to some other destination 
if they decide that there is another priority.
    That decision will be made back here in the Pentagon 
between the Joint Staff, Secretary of Defense, and the services 
on where exactly the equipment goes.
    Mr. Ortiz. My time is now up. Thank you so much, Mr. 
Chairman.
    The Chairman. I thank the gentleman.
    Let me point out, in front of each member is the timeline 
for each questioner, which is a rather new experience for us 
here, but I point that out to the members.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    I would like to thank the General for being here.
    Mr. Secretary, thank you very much.
    General, I appreciated so much the briefing I received last 
month with you in Baghdad. I appreciate your leadership.
    In fact, I had two sons serve in Iraq. A reason I felt so 
comfortable about their service is persons like you, the 
capable American military leadership. It was really reassuring 
as a parent.
    And I am so grateful for our troops serving currently, for 
our veterans. They are making a difference, defeating the 
terrorists overseas.
    My question, and it is very similar to my good friend 
Congressman Solomon Ortiz, is relative to equipment. That is, 
as you execute the redeployment of personnel and equipment from 
Iraq, to what extent is it reasonable to simply move the 
equipment to Afghanistan? In your opinion, are we fully 
capitalizing on that opportunity?
    General Odierno. Again, we are. I would say again, those 
decisions are made by others. But let me give you an example of 
what happened, though, recently.
    We had 19 sets of route clearance equipment that was 
excess, that we once needed that we no longer needed, and we 
expedited the movement of that equipment to Afghanistan. So we 
identify those key pieces that are no longer needed in Iraq, 
they are needed in Afghanistan, and those are moved very 
quickly. That is completely coordinated through Central Command 
with General Petraeus and his team as we move equipment back 
and forth.
    So, absolutely, we identify the critical pieces of 
equipment that are needed. We have moved some engineer and 
aviation equipment as well from Iraq to Afghanistan as our need 
for it has reduced, and we will continue to do this as we move 
forward.
    Mr. Wilson. And I am particularly interested in unmanned 
aerial vehicles (UAVs), so I hope each one that could be moved 
would be moved. It just gives such protection to our troops and 
allies.
    General, I understand that the relationship between the 
Multi-National Force--Iraq and Iraqi Security Forces is 
actually far more positive than the media portrays. In fact, on 
our tour, we were at Tallil, where my son Alan served for a 
year, and we visited with your personnel and the Iraqi security 
personnel in the same room working together. It was just 
startling to me.
    Then we had the opportunity to see the new Iraqi Special 
Forces, and they have the latest, most modern equipment in the 
world.
    I also noticed they have M249 crew-served weapons, which 
are made by FN Manufacturing of Richland County, South 
Carolina, my constituents. They are very proud to make those 
for our troops and for our Iraqi allies.
    What is your assessment of the relationship and what 
measures can be taken to further improve communication and 
cooperation?
    General Odierno. First, I will say over the last three 
years specifically, during and following the surge of forces, 
the partnerships that have been developed and the relationships 
that have been developed have been extremely strong with the 
Iraqi Security Forces, from private up to the Minister of 
Defense and Minister of Interior. In every operational command, 
in every Joint Provision Coordination Center, which are the 
ones that collect all the information, we have joint commands 
operating in every one of those.
    There are always some anecdotal stories that will tell you 
maybe there are not good relationships, but I will tell you 
that the strength of the relationships between our leaders and 
their leaders continues today as we continue to support them as 
they move forward, and the large majority of Iraqi leaders are 
appreciative of that support that we continue to give as we 
move forward here and as they take more and more responsibility 
for security.
    Mr. Wilson. Well, it was extraordinary as we were there 
that Congressman Patrick Murphy was on the congressional 
delegation (CODEL), and he had served in Iraq, and it looked 
like he just couldn't wait to join the Iraqi Special Forces.
    Mr. Secretary, as our military forces draw down in number 
and transition fully to an advise and assist role in Iraq, what 
support do you expect from the State Department? In your 
opinion, are the Department of Defense and State Department 
roles clearly defined?
    Mr. Vickers. The National Security Council (NSC) currently 
has a process under way to manage the transition of certain 
responsibilities from the Department of Defense to the 
Department of State. One of these will be assistance to Iraqi 
police forces over time, and I believe that process is well 
under way.
    Mr. Wilson. And a final story, I was with Congressman Henry 
Cuellar one time seeing the training of the Iraqi police. He 
was right in the middle of them. I thought maybe it was 
dangerous. No, they all were practicing English. So it is just 
a great experience.
    Thank you, and I appreciate your testimony today.
    General Odierno. Congressman, if I could just add a little 
bit to the last comment. We are in the process of redeveloping 
a joint campaign plan between the U.S. Embassy and Multi-
National Force--Iraq which is focused entirely on transitioning 
responsibilities to the Embassy as well as the Government of 
Iraq as we withdraw our forces in 2010 and '11, and we plan on 
publishing this document sometime around the first of the year. 
That will identify the deliverables and specifically what we 
transition to the U.S. Embassy, who has responsibility for it, 
and what transitions to the Government of Iraq. Because this is 
really important for the continued success post-2011 as well.
    Mr. Wilson. And I am grateful to have a nephew stationed at 
the Embassy. Thank you very much.
    The Chairman. I thank the gentleman.
    The gentlewoman from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you, 
gentlemen, once again, Mr. Secretary, General, once again, for 
being before us, and thank you for the work that you do for our 
country. And you are right. Our troops are just doing a great 
job. In fact, I get a lot of e-mails and a lot of information 
and a lot of calls from them about what is going on on the 
ground.
    I know, General, you and I usually have a disagreement 
about what is really happening out there in Iraq, and I think 
usually I am closer to what is really going on than you. But 
let me just put for the record that I do believe we are getting 
out. We are getting out of Dodge, and we are going to get it 
done sooner rather than later, and that means that we really 
are looking at our State Department and other departments to 
get that other work done as we withdraw our troops.
    General and Mr. Secretary, I would like both of you to 
answer this question: General, at the end of July, you and 
Secretary Gates visited with Kurdish leaders in Irbil; and you 
were widely quoted saying that the Arab-Kurd tensions over 
disputed internal boundaries and national petroleum policy were 
the biggest problem facing Iraq. In fact, you said Arab-Kurd 
tensions are the number one driver of insecurity. Yet, this 
morning when you began and you talked about the drivers, you 
didn't mention this.
    So my questions are, do you still believe that the number 
one driver is insecurity, or do you still think it is up there? 
And what measures have been taken to manage and to reduce the 
tensions that are going on?
    And, of course, Article 140 of the constitution of Iraq 
provides for a phased process of normalization, census, and 
referendum to determine the final boundaries of the Kurdish 
region within a democratic process. But some have said to me 
that they think the U.S. has to be more active in getting this 
140 Article issue done, this process done. In fact, when I 
asked Secretary Gates in front of this committee, he said that 
the U.S. fully supports Article 140.
    So my question is, how involved are we in that? What are we 
doing to push these sides to get to a resolution under the 
constitution? And if in fact we are going to have a responsible 
withdrawal, don't you think that getting that Article 140 
process done is almost a precondition for us to be able to 
remove troops and make sure that these ethnic issues are taken 
care of? And why is 140 stalled and what are we doing to move 
it in the right direction?
    General Odierno. Thank you, Congresswoman.
    I still believe that Arab-Kurd tensions is the number one 
driver of instability inside of Iraq. I mentioned it. I might 
not have said it was number one, but I did mention it. And this 
is long-standing problems over land and resources and the 
distribution of those in these key areas that have been going 
on for hundreds of years inside of Iraq between the Kurds and 
the Arab population.
    The Article 140 process back in December 2007, actually did 
not get finished by December of '07, which was the date in the 
Iraqi constitution it was supposed to be finished. And when 
that happened, what happened was we formed a United Nations 
(U.N.)--the U.N. took over trying to renegotiate and get the 
sides together. So we have a U.N. commission now that is 
working very hard between the Government of Iraq and the 
Kurdistan Regional Government to try to come to some agreement 
with these very difficult issues regarding disputed areas in 
terms of boundaries as well as a sharing of hydrocarbon and 
resources.
    So what we are doing is we are fully in support of that 
effort. We support the U.N. We engage with both the Government 
of Iraq and the KRG on these issues to make sure they continue 
to participate in this process, and this process ultimately 
will follow hopefully and cause the implementation of the 140, 
Article 140, and the resolution of these issues.
    In addition, we are attempting to work with the Government 
of Iraq and the Kurdistan Regional Government to reduce 
tensions in the areas. Over the last year or so, on several 
cases, it is the U.S. forces who have helped to reduce tensions 
between these groups. We now have them in discussion, and they 
are trying to come up with some sort of an architecture, 
security architecture, that will reduce tensions between the 
Arabs and Kurds. So we will be at such a level that everybody 
understands that they will solve this problem through the 
political processes of the U.N.
    This is something that Iraq has to solve. This is an Iraq 
problem that the Iraqis have to solve. We have to be engaged at 
all levels, and we will continue to be engaged at all levels.
    The Chairman. I thank the gentlelady.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman and General 
Odierno. Thank you for being here, Mr. Secretary.
    You know, General, I remember not so long ago flying across 
Iraq in pitch darkness in a Blackhawk helicopter just about 150 
feet off the ground, and my memory is very clear that I was 
much more disconcerted about that than you were.
    I just appreciate what a great soldier of freedom you are. 
I am convinced when that day comes and we do get out of Dodge, 
that those streets of Dodge will be much safer because you 
passed that way.
    No one knows the future. No one knows what will happen in 
Iraq. I suppose there are two people who try to predict the 
future, those who don't know and those who don't know they 
don't know.
    But, that said, I think you have given Iraq a chance to 
live in freedom, and you may have brought a beachhead of 
freedom to the Middle East that potentially could help the 
whole of humanity turn in a better direction. And whatever 
happens beyond that, I certainly salute you for your noble and 
gallant service.
    I suppose my first question is to some degree along 
Chairman Skelton's question, but it has to do with power 
vacuums. I know it has been said that U.S. presence, if it 
disappears, that there will be a power vacuum that could occur. 
Mahmoud Ahmadinejad himself has been quoted saying, ``The 
political power of the occupiers is collapsing rapidly. Soon we 
will see a huge power vacuum in the region. Of course, we are 
prepared to fill the gap with the help of our neighbors and the 
regional friends like Saudi Arabia and with the help of the 
Iraqi nation.''
    Now, I know that Iran has been implicated very clearly in 
making the explosively formed penetrators that are one of the 
great dangers to our troops there. So I guess, taking into 
account the potential regional influence Iran may have, how 
close a relationship do you envision Iraq and Iran to have in 
the future, and how great a concern should that be when we are 
discussing the amount and type of U.S. forces that should 
remain in Iraq for ongoing stability?
    General Odierno. First, I think we must always realize that 
Iran and Iraq are neighbors and they are going to have a 
relationship. The one thing, though, over time that I have 
learned spending in Iraq is the Iraqis are nationalists. They 
really don't want anyone interfering in their internal 
politics. They want Iraq to be for Iraq. And I think it is 
important to remember that as we move forward.
    Again, I think the important part is about the key term 
that the President used in his strategy and the strategy we are 
doing is ``responsible drawdown.'' And that is why it is so 
important to do it slowly, deliberately, so we are able to draw 
down in such a way where the Iraqi Security Forces continue to 
grow, all the other civil capacity builders continue to grow, 
and that allows Iraq to stand up as a country who can resist 
some of these outside forces who might attempt to have undue 
influence. That is also why it is so important for us to have a 
long-term relationship with Iraq.
    So I think those are the keys as we move forward.
    Mr. Franks. I suppose, you know, again, it is the obvious 
follow-up. You said in the close of your testimony that, ``We 
must leave Iraq with the security force capable of defending 
the Iraqi people and protecting the Government of Iraq 
institutions.''
    Obviously, that is the long-term goal that we all want, 
very, very cogent remarks. What in the final analysis is your 
biggest concern with achieving this goal? What can we do to 
make sure that happens? What can the Congress do? I think you 
have carried Congress on your back this whole time. So I just 
want to make sure you can give us some perspective.
    General Odierno. I would just say is that it is about 
strategic patience, and even after we leave in 2011, we can't 
just say, okay, Iraq is finished. We are going to need some 
additional support between now and 2011 to help build some of 
the capacities. We will identify what we need to you.
    We will also need to continue to support them in some way 
beyond 2011, not by having troops in Iraq but by helping them 
to continue to develop their institutions, and we can have an 
influence on that.
    So we have to make sure that we allow them to do that, and 
we keep that in mind as we move forward. Ultimately, I believe 
that will contribute to our own security and stability in the 
region.
    Mr. Franks. Well, thank you, General. My time is gone, but 
I thank you again for your commitment to human freedom. My two 
little babies I think will live in a brighter place in life 
because of people like you, and I appreciate it.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you, General, Mr. Secretary, for being here and for 
your outstanding work. I know, General, you certainly are being 
credited for helping to turn this situation around, and we 
appreciate that.
    I wanted to ask you, the Wall Street Journal reported 
yesterday that the Iraqis are having difficulty with their 
budget crunch and oil prices decreasing and purchasing 
equipment that they had already requested from the U.S. 
Government, and there are a number of issues combined with 
that. How difficult and how high a priority is it for us to get 
this straight, and are there policies that we in fact should be 
looking at right now that would allow them to purchase more of 
those in advance?
    General Odierno. I think it is very important. We have been 
working this for quite some time.
    First, the Iraqi budget, I know because of the price of 
oil, their budget has decreased quite significantly. Their 
combined Ministry of Defense-Ministry of the Interior (MOD-MOI) 
budget is about $10 billion a year. About 85 percent of that is 
fixed, non-discretionary, and it has to do mainly with salaries 
and other things. So that leaves a very small piece left to 
invest in modernization. They have already purchased several 
things such as patrol boats and many other Army and some Air 
Force equipment that they have to still pay for. So almost all 
of their even discretionary income is taken up.
    So what I want to be able to do is assist them in some 
small ways by using stay-behind equipment, potentially leaving 
for them, as well as improving their ability to not have to pay 
all costs up front for foreign military sales (FMS), where they 
can spread it over a longer time period.
    Mrs. Davis. As I understand it, they don't meet a number of 
the criteria that we have.
    General Odierno. That is exactly right. The International 
Monetary Fund (IMF) bank has to certify them. And, of course, 
they are trying to get through that certification by having 
enough reserves so they get certified. So it is a very complex 
problem, and we have things competing against each other. So we 
are trying to come up with many different ways to help them to 
get the equipment we think is necessary for them to have a 
foundational capability by 2011.
    Part of that might be is we might have to--what we believe 
is there is, in fiscal year '10 and '11, we think we have a 
requirement of about $3.5 billion that we need to help them in 
order to finish getting the foundational capacity that they 
need in order to be able to have security by 2011. Then we will 
have to continue some sort of a foreign military financing 
(FMF) program through the State Department after 2011. If we 
are able to do that, that will allow them to slowly build up 
and have the security capability necessary to protect 
themselves.
    Mrs. Davis. Thank you. I appreciate that.
    One of the things that must be frustrating is that violence 
does continue to flare from time to time. I noticed that one of 
the high-ranking Iraqi Army generals was recently killed as 
well. I guess that was reported yesterday.
    What effect does that have in terms of the government, the 
army? Or have we gotten so numb to that now in a sense that it 
doesn't have the kind of impact?
    General Odierno. I think for the Iraqis--first of all, it 
was a brigade commander that was killed yesterday up in Mosul. 
No, it does have an impact. The Iraqi Security Forces, like our 
forces, understand what their duty is and what their mission 
is, and they are very dedicated to providing security to their 
people. And I have seen many acts of bravery by Iraqi leaders 
and their soldiers, and in a lot of ways they are no different 
from our soldiers when it comes to that.
    So they see that as their mission, and they are trying to 
root out these last remnants of al Qaeda and other insurgents 
in some of these very difficult areas.
    The sad part, Congresswoman, is that we continue to see 
these attacks against innocent civilians. They absolutely mean 
nothing to the outcome, and all it does is kill innocent 
people. It is frustrating to us, and it is frustrating to the 
Iraqis. That is what we are trying to stop inside of Iraq now, 
these mass bombings that occur. Although much less frequently 
than before, they still occur and kill many innocent people. 
Those are the kinds of incidents we are trying to stop.
    Mrs. Davis. Are our civilians able to move freely, go down 
and have a cup of tea, to engage in an informal fashion yet at 
this point?
    General Odierno. They can, in order to meet with Iraqi 
officials. I would say you can, but it is still a little bit 
difficult to move freely. They are targets, is part of the 
problem.
    The Chairman. I thank the gentlelady.
    The gentleman from Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    General, thank you for being here this morning, and 
Secretary Vickers, thank you. I will have a question in a 
second.
    General, the hash marks on your right sleeve I think 
indicate deployments away from family and the comforts of this 
country. I can't count them from here. But as a representative 
of all the men and women sitting behind you who have earned 
those stripes and, more importantly, their families who endured 
during those deployments, thank you very much. We sincerely 
appreciate your great service to this country. Please pass that 
on from us to the folks who you lead. I know you are very proud 
to lead them.
    Following up a little bit on what Susan just asked, the 
Department of Defense has asked for $750 million of legislative 
authority to give equipment to the Iraqis. Much of that will be 
excess equipment that it might be cheaper to leave it than 
bring it home. And this may be a better question for the 
Secretary. Much of it is going to be non-excess equipment, 
equipment that we may need or do need, judge that we need in 
other places. How do we reimburse the services that give that 
equipment up? How do they replace it? Is that going to be a 
supplemental? Where do we find the money to replace that 
equipment that otherwise would be needed for some of the other 
forces?
    General Odierno. I will let the Secretary answer that.
    Mr. Conaway. He has been very quiet all morning.
    General Odierno. I will say just one thing. We divide it 
into several groups. There is excess equipment that is truly 
excess to all of our requirements, so that is not required. But 
there is some equipment that might not be completely excess but 
what we have determined is it actually costs us more money to 
send it back than it would to leave it there. So that is the 
decision process we go through on this equipment.
    Now, in terms of the authority and reimbursing, I leave 
that to the Secretary.
    Mr. Vickers. Our J-4, our logistics director to the Joint 
Staff, is leading a process right now looking at this issue 
with the services about, as General Odierno said, what amount 
of the inventory is excess that we could leave in Iraq, what 
costs too much to bring back, how we reimburse the services, 
but also what we would ship elsewhere, for example, for other 
needs, and that process is still under way.
    Mr. Conaway. Sure. I understand that. But how do we get the 
services reimbursed for that equipment that is considered non-
essential? I have great confidence in your ability to decide 
which is which and to figure out it costs more to ship it home. 
But how do repay? Is it going to be a supplemental, an 
additional budget request? Where are you guys coming up for the 
money for the services? Out of hide, or what are you going to 
do?
    Mr. Vickers. I think that is being worked in the 2011 
budget process, sir, is my understanding; and it will be 
resolved before then. But I am sorry I don't have a better 
answer for you right now.
    Mr. Conaway. Okay, if you don't mind getting back with us 
on the record on that.
    Mr. Vickers. I will, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Conaway. General, as you have lived with the Strategic 
Framework and the Status of Forces Agreement for several months 
now, are there anything about those agreements that need be to 
adjusted or tweaked that you need help with from a legislative 
standpoint in terms of filling out the rest of these two or 
three years we are involved that would make it easier or 
better, from your perspective?
    General Odierno. Well, I think I will be honest with you. I 
have been pleased. Frankly, it has turned out better than I 
probably originally thought it would as we walked into this. 
But I think--and it is because, again, I go back to the 
relationships. The relationship we will have built with the 
Government of Iraq has allowed us to execute this agreement in 
a very fair, appropriate manner.
    I think we have the authorities we need inside of the 
Security Agreement to execute what we need to do. It also, 
importantly, puts the Iraqis out front. Although we are still 
conducting combat operations, we do everything through the 
Iraqis. I think that is where we want to be today, because we 
want to slowly give them more and more responsibility. So I 
feel comfortable so far with the agreement as it is written.
    Mr. Conaway. All right. One last question as it relates to 
the risks that the elections won't come off in January. Other 
than them not being put into the form of election laws, what 
other risk do you see that those elections won't come off 
appropriately?
    General Odierno. As I look at it today, if we get the 
election law passed, I believe unless there is some unforeseen 
event that would happen--and I have trouble getting my arms 
around what that might be--I really believe the elections will 
occur on time, unless there is something that caused a large 
amount of sectarian violence to break out between now and the 
election. But I just don't see it, because the Iraqi people 
don't want to go there. They are tired of that, and they want 
to move forward.
    Mr. Conaway. Again, General, thank you for your long 
service, and please convey to the folks you lead how much we 
appreciate it, but especially their families, because I think a 
lot of times the families don't get bragged on enough, what 
they do to allow you and your team to do what it does.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    The gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you Mr. Chairman.
    General, welcome, and, Mr. Secretary, welcome to you, too. 
Thank you both for your service and, General, particularly your 
great leadership of our forces in Iraq. I hope you also pass on 
our deep appreciation for all of those that you lead who wear 
the Nation's uniform of how grateful we are for their sacrifice 
and their service.
    General, when you and I had the opportunity to meet when I 
was there to visit in Iraq over the Memorial Day recess, it was 
just prior to the beginning of the drawdown of troops; and the 
particular area that you still had concern about was in Mosul 
in particular, the presence there still of al Qaeda in Iraq. 
Can you give me an update on the current situation there, the 
strength of insurgent forces there, and what you have seen as 
we have started to withdraw?
    Also, on a broader sense, as we get closer to 2011 and once 
we have completed withdrawal of all of our forces, can you give 
us an assessment of what the intelligence sources suggest, what 
does your personal assessment conclude, is the strength of 
those that might be waiting for us to leave and their ability 
to carry out attacks to undo everything that we have achieved 
to this point?
    General Odierno. Thank you, Congressman.
    First, with Mosul, Mosul continues to be probably the most 
difficult area. Nineveh Province, Mosul is part of Nineveh 
Province, is probably still the most difficult area. However, 
we are still making progress. Incidents have come down a little 
bit.
    What we have been able to do is, with the Iraqi Security 
Forces taking responsibility inside of the cities, that has 
allowed us to move outside in the belts around Mosul and also 
move towards the border with Syria, which has made it much more 
difficult for foreign fighters and other groups to transit. So 
I think, because of that, we are starting to see a reduction in 
some of the capacity up there.
    But the current concern goes back to their attempt to 
exploit some of the political fissures, Arab-Kurd tensions 
being one of them, in Nineveh Province, where you have some of 
the groups such as al Qaeda trying to ignite some sort of 
conflict between Arabs and Kurds and potentially some Shi'a 
minority groups and Kurdish minority groups.
    Mr. Langevin. Is al Qaeda still the main problem?
    General Odierno. It is. Again, its capabilities are 
degraded, but they are still a bit resilient, and they are 
still able to conduct operations. We have been able to cut into 
their finance network a bit, but they are like a Mafia 
organization. They extort money from many small businesses in 
order to fund their operations. We realize that, and we are 
going after that, working with the Iraqis. We believe if we can 
really go after their funding it will significantly limit what 
they can do.
    Mr. Langevin. On the broader question of those who would be 
waiting for us to leave and the assessment of their strengths 
and ability?
    General Odierno. Yes. I think the important part is if we 
can get the Iraqi Security Forces, as I stated earlier, to a 
level, they are on the right track. If we continue to progress 
over the next two-and-a-half years, if we continue to fund some 
of the things they need, I believe that they will be ready and 
they will be able to handle the groups that are remaining.
    The development of the Iraqi special operations forces and 
their ability to do counterterrorism operations improves every 
day. The improvement of the conventional forces to do 
counterinsurgency operations is getting better. Police primacy 
is probably the one area that will probably need continued 
support following 2011. I think we will have police primacy in 
many parts of Iraq but not in all parts.
    Mr. Langevin. On the advise and assist brigades that you 
developed, can you can give a little more clarity of each of 
the troop levels for the advise and assist brigades? I know it 
is 35,000 overall, but give us just a breakdown on that.
    Again, I understand that the role of those will be to 
continue to train and equip and support the Iraqi Security 
Forces. What specifically would the advise and assist brigades 
accomplish that is not being done already today?
    General Odierno. First of all, what we have done is we used 
to have--there is about 4,000 people in the advise and assist 
brigades. What they do, what they will be able to do they have 
not done before is we used to have external advisory teams that 
we took from all over, the Army and Marine Corps mainly, and 
put them into Iraq and they were independent entities. What we 
have now done is we have embedded all of these inside of these 
brigades so it gives us unity of command and unity of effort. 
These brigades control all of this training and assist. They 
will be able to develop at all levels. So it will be much more 
organized, controlled, and I believe we will get better results 
from it.
    In addition, they will be able to continue to provide 
security for the provincial reconstruction teams and other 
nongovernmental organizations (NGOs) and U.N. individuals who 
want to still work in building Iraqi civil capacity. So that 
will be what they do. And also always provide protection for 
our force. But that will be what they do.
    So what we have done is we have better organized them to do 
that mission. We do some of that today, but really we are 
organized more for combat operations and not for training and 
assistance. So what we have done is we still have the ability 
to defend ourselves, but they are better organized to do this 
type of mission.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Taylor [presiding]. Mr. Coffman for five minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Odierno, I was in Iraq in 2005-2006 with the United 
States Marine Corps working with Sunni Arabs in a civil affairs 
capacity. And one thing I noticed from the population is that 
they repeatedly expressed a concern to me that the army--that 
the Iraqi Army at that time working in the area was 
predominantly Shi'a, with very few Sunnis in the Iraqi Army, 
and they really saw that as an occupation force and not as a 
force of their own. Is there better integration in the military 
today?
    General Odierno. The army and the police force itself is 
representative of the population, so I believe there has been 
more done to integrate both Sunni and Shi'a. You don't hear 
that much anymore.
    The Sons of Iraq and integrating some of them in the 
security forces, out in Anbar specifically, which we did in 
2007 has helped specifically out in Anbar and some of the other 
areas. But we have Sunni leaders, we have Shi'a leaders, we 
have Kurd leaders. So I think the army for the most part 
reflects a good cross-section.
    I still think some Iraqis will tell you they are concerned 
that leaders have not yet been, by constitution, approved by 
the Council of Representatives and are solely selected by the 
Prime Minister, so we have to work our way through that. I 
think that is one issue that continues to raise its head as we 
continue to move forward, and we continue to work that with 
them. It is about the Council of Representatives enforcing 
their will based on the constitution.
    Mr. Coffman. Thank you, General.
    Another question, when we look at the insurgency today--
again, when I was there in 2005-2006, the foreign fighters were 
a large part of the insurgency at that time and certainly were 
al Qaeda-linked. How would you describe the insurgency inside 
of Iraq today?
    General Odierno. It is much different than it was.
    First, the numbers and size of it is significantly less 
than it was. Foreign fighters are coming in at a rate of 90 
percent less than what it was back then. There is very few that 
come across every month, and once they get into the country, 
they have difficulty maneuvering. But there are still some that 
are coming in.
    We are seeing a smaller and smaller group, and, in some 
cases, I would argue it is moving more to criminality than it 
is an insurgency. But it is hard sometimes to determine the 
difference, whether it is criminal activity or insurgent 
activity. But some of those have combined.
    Because of the many insurgents either reconciling, coming 
back to the Government of Iraq, or over time have been killed 
or captured, many criminals are now being used in order to 
attempt to try to conduct some of these activities. So it is a 
different understanding of those elements.
    Overall, I would just continue to emphasize that the 
security around most of the country is fairly normal. In only a 
few places do we have serious incidents, and in many instances 
life has really returned to normal inside of Iraq.
    Mr. Coffman. General, how do you see the combat service 
support elements of the Iraqi military today? Are they still 
largely dependent on the United States, or are they 
increasingly independent?
    General Odierno. They are better, but they are still not 
where they need to be to be completely independent. They still 
need our support.
    Part of the area that is hurting the Iraqi Security Force 
combat service support (CSS) is that they put a freeze on 
hiring based on their budget constraints; and in '09, '10, and 
'11 is when they are supposed to really build the CSS. And if 
they continue to have this freeze they won't have the 
individuals to fill the positions. That is part of the problem. 
We are working with them now to ensure that happens.
    But, overall, we have seen improvement, but it is not yet 
where we believe they can be completely independent of 
providing their CSS.
    Mr. Coffman. General, how much is corruption a factor 
today? Obviously, in 2005-2006, it was a significant factor in 
the Iraqi Government. How would you evaluate it today?
    General Odierno. Corruption is still problematic. It is 
still endemic inside of Iraqi society and in the ministries. 
However, we are starting to see--I know specifically in the 
Ministry of Interior and Ministry of Defense, they are taking 
specific steps in order to counter corruption. We have seen the 
arrest of two ministers involved in corruption. We have seen 
the firing of some generals involved in corruption. So they are 
starting to understand the importance of government officials 
being accountable for their actions and the fact that 
corruption will not be accepted.
    I still think we will have years in order for them to solve 
this problem, but they are beginning to move on the right path.
    Mr. Coffman. Thank you, General.
    Mr. Taylor. Mr. Courtney for five minutes.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you 
General and Secretary for being with us today.
    I was with Mr. Lynch in July, as you may recall, visiting. 
You had pretty much just passed at least the 40-month mark, at 
least, when we were visiting you. I think when they write the 
history books of this whole conflict your service is going to 
just stand out in terms of your dogged persistence. And I 
think, again, the fact that there are so many empty seats in 
this room is the ultimate statement on how successful you have 
been. Two years ago, this topic, you couldn't move in a 
committee hearing room, and, again, I think that by itself says 
a lot.
    One of the other things that, two years ago, when General 
Petraeus testified, he was joined by Ambassador Crocker to sort 
of report in from Iraq, and, obviously, some things have 
changed. The Green Zone has now been disbursed in terms of the 
new U.S. Embassy, and you are in a new physical location. As 
Congresswoman Sanchez indicated, the political challenges 
facing Iraq are still as much a part of the end game here as it 
was two years ago. How is the relationship between your office 
and the ambassador? How often do you interact, and what efforts 
are still being made by us to keep moving forward on the 
political end?
    General Odierno. Thank you so much for the question.
    First of all, we interact every single day. We probably 
meet personally three or four times a week. I have an office in 
the Embassy that I man. But I also have about 300 people within 
MNF--I that are actually in the Embassy that are in support of 
economic, police, training, and other agencies, planning, that 
are there every single day working with the Embassy. So we are 
completely integrated at every level. We continue to be 
completely integrated.
    We are updating this joint campaign plan, which is a joint 
plan between Ambassador Hill and myself. We are working this 
very hard, very closely together. It is very important, because 
it really is going to set what the deliverables are as we 
transition to civilian capacity building once the military 
completes civilian capacity building.
    The way I put it to all of my people is, in 2003, we had a 
chance to do this. We didn't do it quite right. We have a 
chance now. We have got to make sure we have the planning and 
the deliverables necessary to make sure this works as we reduce 
our presence. We are hand in hand doing a joint process with 
the Embassy, and I feel very comfortable with this.
    So I believe we have a real good system in place. Every 
meeting that I hold, we have a member of the Embassy at the 
meeting. So our relationship is good. Ambassador Hill and I 
work very closely together on a daily basis. As I tell him, the 
only thing Ambassador Hill and I disagree with every day is 
that he is a Red Sox fan and I am a Yankees fan. So, besides 
that, we do pretty well.
    Mr. Courtney. Well, I have to side with the State 
Department on that issue.
    Just to follow up on Congressman Conaway's question about 
SOFA, there was a lot of time spent in terms of trying to 
balance the jurisdictional issues in terms of if there was 
disputes and how to resolve disputes. And I think, again, you 
were talking in July when we were over there about the fact 
that it was still kind of new to people, but we were trying to 
get it done at the street level rather than have it go up 
above. Do you find that you have to kind of referee or at least 
the systems requires refereeing?
    General Odierno. I think we are all honest brokers, is how 
I put it, in some of these issues. Sometimes we become the 
honest broker. They know we will work for both sides trying to 
come up with the right solution. Those times are coming less 
and less, but we still are, on many issues, the honest broker. 
So what we try to do is play a role that allows the Iraqis to 
solve it, with us facilitating the process for them to solve 
these problems.
    That is a change in mindset that we have to have. It is not 
that we have less leverage. It is that our leverage is 
different today than what it was, and it needs to be different 
because of the security agreement, because we recognize their 
sovereignty. We want them to build the capacity to solve these 
problems themselves. So it is our responsibility to make sure 
we help them to solve those problems themselves in any way we 
can.
    Mr. Courtney. And, real quick, you mentioned that the CERP 
money, a substantial amount of money was returned. I mean, why 
is that happening? It is just the need isn't there? Were we 
overbudgeted?
    General Odierno. A couple of things. First, some of the 
money was actually used to pay the Sons of Iraq, and that was 
the first $240 million we returned. The Iraqis took over the 
payments of the Sons of Iraq. Since that is why we said we 
needed this, we turned it over.
    The other thing is we also had $270 million of Iraqi CERP 
money that they gave us. So we used their money before using 
our money. So both of those combinations allowed us to turn 
back some money.
    The other thing is, obviously, now we are very careful that 
we will not do projects that we know we cannot track and make 
sure they are successfully completed. So sometimes we don't 
have the capacity to ensure that these projects are done and 
done properly and they are finished properly. So I think that 
all of those contributed to us turning the money back in.
    But I do want to emphasize it is still a very important 
program. We still need some CERP money in the next few years to 
do this. But it will be a request that is, obviously, less than 
it was in the past.
    Mr. Taylor. Mr. Shuster for five minutes.
    Mr. Shuster. Thank you, Mr. Chairman.
    And, General, thank you for being here today. I appreciate 
your service. I just want to echo what my colleague from 
Connecticut said. When they write the story about Iraq, your 
name will be prominent in that story. Because in my several 
trips over there, I can't remember a time when I haven't met 
with you in Iraq. This is the first time I think I have seen 
you out of Iraq in the last several years. So, again, I 
appreciate that service.
    Secretary Vickers, I am glad that you are still over at the 
Defense Department, especially with what is going on in 
Afghanistan. We know you are an old hand at Afghanistan. So 
thanks for being here today.
    General, you said to us in my last trip there in June that 
November, December, January and February will be the key 
months--two months before the election, two months after the 
election--as to whether we will be able to continue the 
drawdown.
    I think you mentioned here today that you don't foresee 
that happening, but violence will be--that will be one of those 
things that we look at. Is that the only thing, a spike in 
violence, that could possibly cause you to say to the 
President, let's slow down or stop the drawdown, a spike in 
violence?
    General Odierno. Again, I think unless we had some sort of 
not only violence but if we saw a collapse for some reason in 
the government itself, which I don't foresee. But it is what we 
look at, is what are those potential points of instability that 
could cause us to have concern about the seating of the 
government and the successful seating of this government and 
will they be able to continue peacefully as they move forward.
    Mr. Shuster. The last election, as I recall, it took months 
before they were every able to form a coalition. Would that be 
something, if they haven't formed a government in February?
    General Odierno. I think what we would have to decide is if 
we think it will not happen peacefully, and I think I will know 
that by the first 60 days following the elections. So even if 
they are having trouble forming coalitions, as long as they are 
doing it peacefully, I think we can continue. We will still 
have 50,000 people. That is still quite a bit of individuals, 
that we can still have some impact if we need to.
    Mr. Shuster. Thank you.
    The next question, we talked about the loss of oil revenue. 
How diversified is the Iraqi economy and what have we been 
doing or what have they been doing to diversify it?
    General Odierno. It is not diversified. About 90 percent of 
their revenue comes out of the oil industry right now.
    One of the things they are doing, in October, there will be 
an investment conference held here--I think it is the 20th and 
21st--where we will have many of the Iraqi leadership coming 
over to meet with U.S. businessmen. They have done the same 
thing in London already. These are the kinds of things we have 
to do to attempt to diversify the economy.
    They still have some work to do in investment laws that 
they have to pass. They are working those now, and I am hopeful 
that maybe before the October meeting they will have passed one 
of these investment laws. There is some indication they might 
be able to do that, but we will have to wait and see.
    So it is important that they start to develop an atmosphere 
where businesses--there is lots of opportunity in Iraq for 
investment, but it is about does it have the environment for 
investors to go in. That is what we have to continue to help 
them to focus on.
    I think I also believe getting a new government in will 
help. I think you will see the Iraqi Government continue to 
mature. I think the next government will be more mature than 
the last government. They will understand the process more, 
they will understand their roles, and I think that will help 
them to also work some of these key issues that have to be 
worked in order to diversify the economy.
    Mr. Shuster. When you are in the economy diversifying it, 
education has got to play a key role, as well as building a 
representative democracy. What has been happening as far the 
education? Have you been building that up?
    General Odierno. First of all, a week ago, they reported 
that 6.6 million children will go to school in Iraq. Their 
school year will start here at the end of September, the 
beginning of October. That is the highest number that they have 
had in a very, very long time, in fact, maybe the highest 
number on record. I know the highest number since 2003, and I 
think it is actually the highest number even before that. So 
that is a positive sign, that they will have 6.6 million 
children that will go to school.
    Their universities are now developing relationships with 
U.S. universities. We know that some of the land grant 
universities around the U.S. have visited and are conducting 
regular engagements with them and exchanges.
    The Government of Iraq also approved $4.5 million in grants 
for Iraqi students, Fulbright scholarships for Iraqi students 
to study around the world, mostly in the United States and 
Western Europe. So I think these are all positive steps that 
are starting to be taken that will allow them to continue to 
educate their population.
    The Iraqis have always been a fairly educated population, 
but there has been some problem with that based on what has 
happened here in the aftermath of 2003. But we see that 
starting to regenerate itself, and we are encouraged, but there 
is still quite a bit of work to do.
    In the Strategic Framework Agreement, this is one of the 
strong parts of this agreement, is the education piece.
    Mr. Shuster. Thank you very much.
    The Chairman [presiding]. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman. Thank you, General.
    General, I just have two questions. One is just a tactical 
issue.
    You have mentioned that we have withdrawn 150,000 pieces of 
equipment already from Iraq. GAO says there is 31 million 
pieces of equipment in Iraq. Do you really believe that we can 
be totally out of there by the end of 2011, in view of that 
number and all the other numbers attendant to that? And do you 
plan per the Army requirements to close up the bases even with 
the environmental requirements?
    As you know, in Korea, they have been closing them up, but 
they put a stop to them because they haven't followed the 
correct procedures, nor have we funded for it.
    Are you planning to help expedite this to turn over more of 
those pieces of equipment? Because is a large difference 
between 150,000 and 31 million.
    General Odierno. First, Congressman, if I could, I believe 
it is 3.1 million is the number we have, 3.1 million pieces of 
equipment. Still, 150,000 is a small piece of 3.1 million as 
well.
    First off, I do believe we can get that equipment out by 
then. When we say 3.1 million, of course, that goes from the 
smallest piece of equipment up to a tank. So there are several 
different kinds.
    As we close our bases, we have a very sophisticated process 
that we go through that includes environmental assessment based 
on a security arrangement which we signed with the Government 
of Iraq which addresses this issue; and they have to go through 
very specific points in order to determine this. So I feel 
confident we are following what we agreed to in the security 
agreement with the Government of Iraq on how we turn over these 
bases.
    In some cases, it takes nine to ten months to do this. So 
the important part is we are able to identify this ahead of 
time in order to have the time to do the things necessary.
    In addition, many of these bases will actually be turned 
over--they won't be closed. They will be turned over to the 
Government of Iraq, especially the big bases.
    Mr. Sestak. You do this in a non-permissive environment? 
That is the plan?
    General Odierno. We have closed 200 bases so far. So we 
have already done it, in some cases, in a non-permissive 
environment.
    Mr. Sestak. My second question is, Iran consistently comes 
through this committee and almost any security briefing in the 
general area of southwest Asia or the Middle East, whether it 
is Afghanistan or tomorrow's hearing on ballistic missile 
defense (BMD). And you spoke a lot of Iran, but over the last 
couple of years, I was struck by several comments that had been 
made.
    One was by the intelligence agency when they sat before the 
committee and said, if we are not there bleeding, Iran will 
work for stability in Iraq.
    The second one was made by General Eikenberry as he 
departed Afghanistan as a General. And when asked if Iran works 
towards our same objectives in Afghanistan, as we do, he 
replied, yes, they do. They want stability there, and they 
don't like al Qaeda because they are Sunni.
    The third one was the national intelligence estimate (NIE) 
that came out about 2007, and in testimony here the 
intelligence community again testified that, with regard to 
foreign policy and security decisions, Iran takes a cost-
benefit approach, rather than a headlong rush to a decision 
irregardless of cost or benefits to its diplomatic, political, 
and other goals.
    You have worked--and you can't miss it, particularly in 
this job--and you have brought up Iran a number of times. What 
perspective can you provide us?
    Because Iran will continue to be brought up in almost any 
security briefing, and you can provide us, rather than ``they 
cause mischief.'' Got it. North Vietnam caused mischief. But 
what can you take away to give us of how to deal with this 
nation, in view of those three statements that say, you know, 
maybe this nation overall, much like other nations we have had 
to deal with, has similar goals but comes about it from a 
different way?
    General Odierno. I would just say, first, if we weren't 
there to bleed that they wouldn't conduct attacks, it is hard 
to say. What I would tell you is I know right now that on a 
daily basis they conduct attacks against Iraqi Security Forces 
with no U.S. forces around. So I am not sure that quite tracks 
with that statement.
    But what I would say is, again, I think Iran needs to have 
a relationship with Iraq, but it has to be the right kind of 
relationship, defining what is best for Iraq, what is best for 
Iran. I think they should have free trade. I think they should 
have a relationship that helps with religious activities, et 
cetera.
    But, again, I think they have objectives that aren't clear 
to us. Iraq is important to them because of the potential 
Sunni-Shi'a issues that are in the Middle East, and Iraq falls 
in the middle of that. So I think there are other reasons why 
they want to be in Iraq besides just having normal 
relationships.
    The Chairman. I thank the gentleman.
    Mr. Hunter.
    Mr. Sestak. So could the Secretary just answer, if you 
don't mind? The Secretary is just going to make a comment, sir.
    Mr. Vickers. Just one comment on Afghanistan. Their 
meddling there is somewhat less than they have done in Iraq, 
but they do support Sunni groups. Strange alliances, but they 
do, in fact.
    The Chairman. I didn't catch that, so thank you very much.
    Mr. Hunter, please?
    Mr. Hunter. Thank you, Mr. Chairman.
    First, Mr. Vickers, I know you through reputation. Just 
thanks for your work as the Assistant Secretary of Defense 
(ASD) when it comes to counterterrorism (CT) and 
counterinsurgency (COIN) and the doctrine that is being 
reinvented right now for Afghanistan.
    And, General, you have been praised eloquently here. I will 
just back that up by saying thanks for letting us walk up to 
the men and women who have served in Iraq and say thanks for 
winning this. I think that is important.
    The first question is, if you could both put your heads 
together and say--I think we have been through two-and-a-half, 
maybe three generals--McKiernan, McNeil, and now McChrystal in 
Afghanistan--during the time that you have been in charge of 
Iraq, what lessons learned would you like to see brought over 
to Afghanistan from Iraq that you haven't seen?
    General Odierno. Well, I would just say, first, I have 
been--as you said, I have spent a large majority of the last 
several years in Iraq, so I don't pretend to understand the 
environment in Afghanistan in order to understand what could be 
applicable inside of Afghanistan versus Iraq.
    One of the lessons I learned is you have got to understand 
the environment, and you have to understand what are the 
social, economic, political, military issues that underpin the 
reason why violence is occurring.
    So, the one thing--and from what I have seen, General 
McChrystal is doing exactly this. He is outlining what are the 
underlying factors that are causing the instability inside of 
Afghanistan, and you have to take a whole government approach 
to solve those problems.
    So I can't tell you specific because I don't understand the 
environment enough in Afghanistan. But I can tell you that, 
from everything I have read, that he understands that 
completely and understands the fact that it is a complete 
approach that has to be taken to solve the problem there, just 
like we needed to do that in order to solve the problem in Iraq 
and will continue to need to do that until we leave at the end 
of 2011.
    Mr. Hunter. Let me ask a quick follow-up before Mr. Vickers 
answers that.
    Do you think you would have seen the success in Iraq that 
you have seen now if you did not have the surge?
    General Odierno. Well, again, I would say, obviously, the 
surge of forces in Iraq helped us to create the security 
environment that we have now, along with many others things.
    The one thing I tell everyone with the surge in Iraq, it 
was just not about the surge of forces. It was about the change 
in our tactics, procedures, the techniques, and procedures. It 
was about a surge of the State Department people as well in 
order to create embedded provincial reconstruction teams with 
the brigades. It was about an outreach program to the Sunni 
insurgents that allowed them to begin to reconcile and form the 
Sons of Iraq. It was about understanding what was causing the 
underlying impacts and that we tried to go after these using a 
combination of CERP, military capacity, and others. So that is 
what I learned in terms of the surge.
    Mr. Hunter. So a lot of things happened, but you wouldn't 
have been able to do it without that increased security to 
allow all of those things to take place.
    General Odierno. Well, again, the surge of forces clearly 
had an impact on our ability to improve the security inside of 
Iraq.
    Mr. Hunter. Got you. Thank you.
    Mr. Vickers, first question: Lessons learned, without being 
critical of anything that is going on, possibly lessons 
learned. I know tactics, techniques, and procedures (TTPs) are 
different in Iraq and Afghanistan, different people, different 
kind of violence, different area. The actual terrain is 
different. But if you could take something from Iraq and put it 
in Afghanistan, maybe systems of lessons learned, the ways that 
we did things there that we are not doing in Afghanistan, what 
would that be?
    Mr. Vickers. Well, first, the difference is the insurgency 
is more rural-based. It is less based on ethno-sectarian 
conflict in Afghanistan. It is more a Pashtun-based insurgency 
in the south and the east. And then there is the critical 
importance of the sanctuary that Afghan insurgent groups enjoy 
in Pakistan. They also receive more funding from external 
sources than I believe Iraqi insurgents did, getting more 
internally.
    That said, there are common principles in good 
counterinsurgency that can be transported; and I think General 
McChrystal is doing some of that now. The focus on protecting 
the population is a core mission for forces, and the 
integration of all elements of power, the whole of government 
approach, as General Odierno talked about. But also things like 
counterterrorism and counternarcotics to make sure they support 
our overall COIN effort, as was done very, very well in Iraq.
    Mr. Vickers. As you know, we have a major review going on 
right now at the White House of our Afghanistan-Pakistan 
strategy, and so that is probably about as much as I would like 
to say now.
    Mr. Hunter. I am out of time. Thank you both for your 
service. And thanks for winning once again, General.
    The Chairman. I thank the gentleman.
    We have Dr. Snyder, Mr. Taylor and Ms. Giffords in that 
order. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    I was unable to be here earlier, General Odierno, and you 
may have answered some of these questions, but in your written 
statement on page seven, you talk about nonlethal operations, a 
force multiplier, and in specific you talk about CERP and the 
Information Operations. There is very little mention of the 
provincial reconstruction teams. Have they not been as much a 
force multiplier as you have desired, or do you not consider 
them in that category? Is there a reason why you did not 
discuss them more?
    General Odierno. No. I did because it is the House Armed 
Services Committee, but they are absolutely critical to what we 
do. The provincial reconstruction teams, as I just stated 
earlier, were a key piece in the surge of allowing us to get 
out and reach and build civil capacity, and it continues to be 
very important.
    Dr. Snyder. How is that working as you have transitioned? 
You mentioned the number of bases that you have closed, and 
PRTs can only operate in a secure environment. Have they had to 
pull back, or are they using Iraqi forces to provide security?
    General Odierno. Well, the plan we have, we have 27 
locations. Some are satellite locations now. We provide the 
security for them in all those areas. When we plan our 
drawdown, one of the considerations we take into place is the 
breach of the provincial reconstruction teams, and we have 
coordinated with the State Department how we will do this. So 
they will be able to maintain a fairly significant number, 16 
is the number we are looking at, throughout the country and 
will be able to continue. One of the main missions of the 
advisory and assistance will be to provide security for the 
provincial reconstruction teams to make sure that they have the 
access necessary.
    Dr. Snyder. You don't foresee that that will be--at some 
point the PRTs will have Iraqi troop security--only Iraqi 
troops for security?
    General Odierno. I think we will slowly turn that over to 
them so when we get to post-2011, that they would be able to do 
that. That will be part of the process.
    Dr. Snyder. As you had mentioned earlier in discussion, I 
think, from Mr. Shuster about economic investment coming from 
abroad, what is the current status, if you know, in terms of 
the Iraqi, I would use the word ``diaspora,'' Iraqis who left 
the country to Jordan and other countries? Are they returning, 
are they not returning?
    General Odierno. They are returning, but in very small 
numbers.
    Dr. Snyder. Do the ones that are outside the borders, do 
they participate in the elections?
    General Odierno. In 2005, they participated in the 
election. As part of the election law, it will be--they will 
develop what countries they will provide the opportunity for 
those not in Iraq to vote, and that will be part of the 
election law as they approve it.
    Dr. Snyder. We focus a lot here in the Congress, and the 
American people do, too, on troop strengths, I think probably 
sometimes to our detriment; that we should focus on an 
Afghanistan discussion, for example, and a whole lot of other 
things. But I wanted to ask, are there any limits or 
considerations with regard to U.S. Government civilian numbers? 
I assume those numbers are relatively small. I don't see them--
you mentioned civilian contractors have come down 
substantially, but I think we have a whole lot smaller numbers 
of U.S. civilian personnel there. Is that a number that you are 
following, and, if so, which way is that going?
    General Odierno. Obviously I work--the Ambassador is 
obviously the one who tracks the civilians that work in the 
State Department side. As part of our contracts, we have some 
American citizens who work as part of the contractors, and I do 
track that.
    But in terms of the State Department side, we do watch 
that. They are--what they are trying to determine is part of 
our joint campaign plan. They are to determine the number that 
is needed as we transition, and I think that number will not go 
down. I think it will stay about what it is now, and, in fact, 
some cases have to come up. For example, if they take over the 
police training, they will need more civilians than they do 
now.
    Dr. Snyder. And it is not just State Department, it could 
be Justice Department, Ag.
    General Odierno. Exactly. Justice Department, Agriculture 
Department, Federal Bureau of Investigation (FBI), et cetera.
    Dr. Snyder. Are you satisfied with the morale of our 
troops?
    General Odierno. As I go around, I am very satisfied. And 
one of the things we always check--I talk to them all the time. 
Reenlistments are over 100 percent in Iraq. In fact, in June we 
finished reenlistment, and they have met all of the goals. So, 
I mean, I think that is also a sign of morale. They are proud 
of what they have accomplished in Iraq and are starting to see 
some of the progress that has been part of their sacrifice.
    Dr. Snyder. As you have closed bases and pulled back U.S. 
troops, are you satisfied with the ability to do medical 
evacuations of wounded troops?
    General Odierno. About once every two weeks, I get updated 
on our ability to conduct medical evacuation. I am absolutely 
confident that we can provide medical evacuation for all of our 
soldiers, sailors, and marines that are currently stationed 
there.
    Dr. Snyder. Does Iraq have any helicopters and helicopter 
pilots that they do their own medical evacuations?
    General Odierno. They do have the capacity to do that, but 
it is small.
    Dr. Snyder. Thank you, General. Thank you for your service.
    Thank you, Mr. Secretary.
    The Chairman. I thank the gentleman from Arkansas.
    The gentleman from Missouri, Mr. Taylor.
    Mr. Taylor. General, like everyone else in this room, on 
behalf of the people in south Mississippi, we are very grateful 
for what you have done and continue to do over there in the 
many years of your life that you have devoted to this effort in 
Iraq.
    I have always been impressed by the brilliance of whoever 
discovered the Sons of Iraq policy, and literally found out 
that for a fairly small amount of money, we can take people who 
were shooting at us to become our defenders. Since that has 
been such a successful program, you did touch on it for about a 
paragraph in your testimony, what steps are being taken to see 
to it that those people who are now on our side remain on the 
side of the Government of Iraq? Do they recognize the 
significance of what has happened? What steps are they taking 
to work those people, to either keep them on the payroll in 
their present capacity or find some other job within the Iraqi 
Government for them?
    General Odierno. Thank you, Congressman. The Government of 
Iraq does understand the importance they play. It is very 
interesting. They have a plan in place to move all of them--
they actually showed us a list of all the names of the Sons of 
Iraq. And they showed us the list, that some will go to this 
ministry, some will go to this ministry, some will go to the 
local governmental ministry. And they laid it all out and said, 
we are going to begin to execute this, and they started to 
execute that in August. So that is a positive sign.
    But what is interesting is after the bombings on 19 August 
in Baghdad, the Commander of the Baghdad Operational Command 
came back and said, I want to slow down the movement of the 
Sons of Iraq into the other nonsecurity ministries, I want to 
keep them on longer because of what they do for us in order to 
help us in the security. So they made a decision to keep them 
on a bit longer. I think that shows first the recognition of 
the senior commanders of how important the Sons of Iraq are to 
the security, and, secondly, that they, I believe, will 
transition them and take care of them. In 2009, when they had 
all the budget cuts, the only line that was not cut was the 
Sons of Iraq, and they continue to have that fully funded. So I 
think those are all positive signs.
    What I have to make sure happens is since they will not get 
them all transitioned to the ministries by the end of 2009, we 
have to make sure that that will be taken care of in 2010. And 
we will work very hard with the Reconciliation Committee of the 
Government of Iraq in order to do that.
    Mr. Taylor. I didn't see it in your prepared remarks, but 
obviously one sign of things getting back to normal would be 
electricity to the average Iraqi. And I know--have we gotten to 
the point where we have reached or they have reached prewar 
levels of electricity to the average citizen?
    General Odierno. Actually they are above the prewar levels. 
They are producing I think it is an average of 155,000 
megawatts. What that means basically is about a 20 percent 
increase from last year. And even more importantly is they have 
less units now going off line. So what they are able to do is 
maintain a more stable grid.
    That said, although they are producing more electricity, 
they still have some problems with distribution. And so they 
have some problems in some areas of distributing electricity to 
all the people. So my guess is you would run into some Iraqis 
who have yet to see an increase.
    The other problem, of course, is demand has increased 
fivefold since 2003, which is a sign of freedom and other 
things, but also obviously puts more pressure on the Government 
of Iraq to provide more and more electricity.
    Mr. Taylor. I guess lastly I am going to ask you to look 
out into the future. It is my impression from several thousand 
miles away that we have replaced a strong, brutal thug with 
more of a distribution of the powers amongst the sheikhs. And 
if you had to say, it would look more like the Magna Carta than 
the Declaration of Independence or the United States 
Constitution. I was just curious, in your opinion, do you think 
it remains for the foreseeable future some sort of a power-
sharing agreement amongst the sheikhs, or is power being 
consolidated in Baghdad? How do you see their political system 
going forward?
    General Odierno. I think it is still to be determined. But 
what I would say is what we are seeing is following the 
provincial elections of this year; people want to see more of a 
nationalistic government. And I think as we see the new 
alliances form for this election, you are seeing that they are 
reaching it. They are just not a Shi'a alliance. There will be 
a Shi'a plus some Sunnis and some others. Maliki's--Prime 
Minister Maliki's alliance will be a nationalistic alliance 
that has many different groups in it. So I see that as 
extremely positive that they have recognized the fact that to 
be successful you have to be able to have more than one 
representative or one area of the people inside of Iraq.
    Mr. Taylor. Thanks again for your service.
    The Chairman. I thank the gentleman.
    Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman.
    General Odierno, it is good to see you again. Thank you for 
your time to come here and for your service to our Nation. 
Unfortunately because of a conflict I wasn't here for most of 
the hearing, but I did have a chance to read your testimony. 
And, of course, it impresses me that within your second 
paragraph you talk about military families, and you talk about 
their unwavering service and their sacrifice.
    I know a lot of strategic questions have been asked 
already, but I would like to talk about the families. As a 
military spouse myself, and as someone with Fort Huachuca and 
Davis-Monthan, I have a lot of military interest in southern 
Arizona. I have a chance to meet with military families and 
really learn about the unspoken heroes, the real stories of 
hardship that have happened behind the scenes. And I still 
remember quite succinctly the first time we met in Iraq and you 
talked about your wife, and you talked about if we lose the 
families, we will lose the soldiers, the sailors, the airmen 
and the marines. So could you talk about our efforts to draw 
down the changing stresses on the service members and their 
families as well?
    General Odierno. I think what we are trying to do obviously 
is reduce the time between deployment--I mean, increase the 
time between deployments, because we all know--and all of us 
and all the people sitting behind me in uniform, they have all 
been on several deployments. And although we tend to play off 
what that really means, we know that there is an impact on 
every single person who deploys, and you need a time to recover 
from that deployment. And if you are not given enough time, it 
can have an impact not only on the soldier, but the family.
    So number one is we got to try to increase the amount of 
time between deployments, where they can enjoy their families, 
get settled again, understand and build those relationships, 
and then allow time for them to recoup and recover with their 
families. And we also have to realize the impact that these 
deployments have on a single parent because you become a single 
parent for a very long time, and I think sometimes that is the 
part we miss is we think about the soldiers and the help they 
need, and we forget about the impact of our wives or husbands 
who become single parents for very long periods of time, 
sometimes during very difficult times for their children as 
they are growing up.
    So I still think there is some work we have to do along 
those lines. I know the Army and the Marine Corps and the Air 
Force and Navy are looking at this, and they constantly look at 
it. But, you know, the strength of our families, you can only 
rely on that so much without giving them the assistance 
necessary. And so I think it is something that we absolutely 
have to keep our eye on as we continue to move forward with 
supposedly increased requirements now in Afghanistan.
    Ms. Giffords. General, obviously we would look forward to 
any of your suggestions. We were able to implement through the 
Wounded Warriors Assistance Act a couple of years ago some help 
for soldiers that were getting out of the military. But I think 
when I last saw you, there was a--I don't want to say epidemic, 
but a real strong spike in the number of suicides, particularly 
in the Army. And I know that you talked about implementing some 
programs there in Iraq, but can you talk about whether or not 
those were successful, and have we seen the numbers decrease?
    General Odierno. We have actually--although we hadn't had a 
suicide in about 60 days, which is the longest period we have 
gone, but I think we may have had one last night, so 
unfortunately that might have ended. But I think we have 
started to see some of these programs take hold, the fact that 
we have more counselors, the fact that we continue to have more 
awareness. It is really about leadership awareness and 
leadership down the chain of command to recognize when an 
individual has problems.
    So I am seeing some progress, at least in Iraq itself. I 
can't speak for the Army as a whole, but I can speak for in 
Iraq itself. But we still have too many, so we still have more 
to do. And again, what is always disappointing to me is it is 
not because people don't care, but when you break down a 
suicide, you always find that there are three or four places if 
somebody had intervened, we could have stopped the act from 
happening. And so what we got to do is understand where those 
intervention points are and then do it so we save a life. And 
that is what we have to continue to work on.
    Ms. Giffords. General, Mr. Chairman, there is incredibly 
strong bipartisan support for our service members and the 
families, but oftentimes we look to you, those commanding 
generals and officers in the field, to let us know what is 
working and what is not working. So having that feedback is 
very important.
    And just in closing I just have to thank you for your 
willingness to reach out to The Colbert Show. This is a 
population that wouldn't necessarily be paying attention to 
day-to-day operations in Iraq, but you are able to put, I mean, 
a real face on how hard it is and what the service members go 
through. I mean, of course it was a comedy, but it was very 
well done. I just thank you for your willingness to reach out 
and engage on that level.
    General Odierno. Thank you. And I think he is due for 
another haircut.
    Ms. Giffords. I think so, too.
    The Chairman. We will make judicial notice of the fact.
    I have Ms. Shea-Porter, and Mr. Coffman wishes a second 
round. So Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. And as a former military 
spouse, I would like to associate myself with the remarks of 
Congresswoman Giffords, and thank you for the attention you are 
giving to these military men and women, who, as you know, have 
carried the burden for so long for the rest of us. So thank 
you.
    I wanted to talk to you about a conversation I had with 
General Petraeus earlier this year when I was talking about the 
electrocution deaths of some of our soldiers. And I was told 
there was Operation Task Force Safe Actions for Fire and 
Electricity (SAFE), and that they were going to be doing the 
investigation. And I believe that the investigation was 
supposed to end right about now, but again comes some horrible 
news about a former military man who came as a contractor to 
Iraq, Mr. Hermanson, and he was recently electrocuted. And so I 
had a couple of questions for you, General.
    First of all, was his facility inspected, or were you only 
inspecting the facilities that soldiers occupied?
    General Odierno. It was not inspected. What happens is as a 
contractor it is the responsibility of the contractor to ensure 
they have adequate facilities, so we were not inspecting those 
facilities. However, since that incident we have sent Task 
Force SAFE over to first outline to all the contractors what is 
expected of them in terms of proper safety requirements. And we 
have also offered them any assistance that they might need with 
Task Force SAFE to go look at all of their facilities to ensure 
they are in line with what we believe to be safe structures.
    Ms. Shea-Porter. Since we knew that we were having trouble 
with the contractors who were supposed to be doing the safe 
wiring, why was the decision made not to inspect the 
contractors' facilities?
    General Odierno. I am not sure we made a conscious decision 
not to inspect them. I think what we focused on was the 
Department of Defense personnel. And I think as we continue to 
expand this, we will look. But there are some contractual 
issues that we have to work through. So we asked the lawyers to 
take a look at this to see what we can and can't do because of 
the fact they are contractors, so we are working our way 
through this now.
    This obviously highlighted a problem that we all didn't 
understand at the time, and so we continue to work it. And what 
I am telling you is we are working this problem now, but we 
have to go through some legal reviews and other things. We have 
offered some initial assistance just to make sure we don't have 
any repeated offenses in that specific contractor. But there 
are many other contractors that have facilities that in some 
cases aren't even under the Department of Defense. And I don't 
remember, but I think this one wasn't even under the Department 
of Defense either. I think it was under a Department of State 
contract as well. So that throws in a whole other issue of how 
we do this.
    So we are working through this because we want to get rid 
of the bureaucracy so we save the lives of the people who are 
going there to work, and that is important to us.
    Ms. Shea-Porter. These men and women serve this country as 
well, and I really don't understand it because I know that many 
of them had access to the medical care that the military was 
providing, and so clearly there was some crossing over there 
that they felt comfortable not even reimbursing, as you recall, 
I am sure. So I just can't understand what happened there.
    Were there any other services provided for the people in 
those buildings?
    General Odierno. I will have to get back with you on that.
    Ms. Shea-Porter. If you could do that, I would appreciate 
that.
    [The information referred to can be found in the Appendix 
on page 65.]
    Ms. Shea-Porter. I have one last question. Can you comment 
on whether the Department of Defense has declined to 
investigate the apparent electrocution of the American 
Department of Defense contractor?
    General Odierno. Again, I have to go ahead and take a look 
at that and see exactly what happened, okay? I will get you an 
answer back on that.
    Ms. Shea-Porter. I would appreciate that General, because I 
feel very certain that when that family sent their loved one 
over to serve this country, they expected that we would do what 
we could to protect all of them, whether they were in uniform 
or whether they were serving as civilians.
    [The information referred to can be found in the Appendix 
on page 65.]
    Ms. Shea-Porter. Thank you, and I yield back.
    The Chairman. I thank the gentlelady.
    Mr. Coffman, second round.
    Mr. Coffman. Thank you, Mr. Chairman.
    General, Mr. Secretary, could you discuss Kurdish 
aspirations, because I think that there certainly was some 
concern when some of the Kurdish provinces were engaging in 
their own negotiations in terms of oil exploration and 
development. Given the fact that the central government relies 
on those oil revenues, what are Kurdish aspirations, and how 
does the oil issue enter the equation?
    General Odierno. I can't speak for Kurdish aspirations, but 
what I can speak to is the two oil fields that are producing 
oil inside of Kurdistan are actually oils fed to the central 
government, and they are getting all of the revenue from those 
oil fields.
    Mr. Coffman. There have been reports that some new--not the 
existing oil fields, but there are some new exploration.
    General Odierno. Yeah. The issue has to do, Congressman, 
with there is some new exploration that has been done since 
2003. Those are pumping oil, those are going to the central 
government. There are also--there might be some additional 
exploration going on. That is the issue. Who pays for the 
exploration? The central government could be doing it. Does the 
Kurdish Regional Government (KRG) have the authority to issue 
these contracts? And that is what is yet to be resolved and has 
to be resolved through the hydrocarbon legislation.
    Mr. Coffman. De-Baathification clearly went too far in the 
aftermath of the invasion, post-invasion of Iraq. Where is that 
now, because it certainly led to a lot of resentment among 
Sunni Arabs?
    General Odierno. They have what they call the 
accountability and justice law, which was passed a couple of 
years ago, which also has had some significant problems in 
implementation. So what it is going to require, I believe, is 
for them to go back and pass some more legislation that will 
adequately address this issue, and that is something that I 
think they have to do internally.
    But the accountability and justice law has been something 
that has been very difficult to implement because it in some 
cases had not appeared to make sense based on some of the 
individuals that would no longer be allowed to work who had 
been serving honorably for several years already within the 
system. So the Government of Iraq knows that they have to 
readdress this problem, but it is still one that has to be 
addressed.
    Mr. Coffman. The problems with the Shi'a militias, how 
would you evaluate the Shi'a militias of today. And to what 
extent are they aligned with Iran?
    General Odierno. The number of Shi'a militias has declined 
significantly, and the number of Shi'a militias in Iraq have 
declined significantly since the March-April 2008 operation 
done by the Government of Iraq in both Basra and Iraq. I think 
there are--what you don't see any more is large movement of 
Shi'a militias who control areas, but what you have now is some 
militant groups that don't control areas, but conduct attacks 
for several different reasons. And I think we have seen the 
militia element move in their ability--in what they do and 
their abilities. So although they continue to be a threat 
because they do conduct attacks against both U.S. forces and 
Iraqi Security Forces and others, their influence has been 
significantly reduced to what it was in 2007 and the beginning 
of 2008.
    Mr. Coffman. To what extent is Iran--I think you mentioned 
briefly Iran providing them training. To what extent is--and I 
think you also mentioned Iran providing them munitions and 
weapons.
    General Odierno. Yeah.
    Mr. Coffman. What is the trend line on that now?
    General Odierno. I think it is less than what it was, but 
what they have done is they appear to target it a little more 
to certain organizations, small organizations that continue to 
train inside of Iraq--train inside of Iran, and who come across 
with increased capabilities to conduct operations and attacks 
inside of Iraq. And they are still provided munitions such as 
rockets and explosive-form projectiles.
    Mr. Coffman. Many of the Sunnis in Iraq, at least when I 
was there, would speak of the Shi'a and say the question is at 
the end of the day are they Arabs first, or are they Shi'a 
first? And they would speak of this in reference to the 
influence of Iran over a Shi'a-dominated Iraqi Government. How 
do you see that at this time?
    General Odierno. You know, the people I deal with--again, I 
don't--what I would say is the people I deal with, I believe, 
are Iraqis first, I will put it that way. And I think that Iraq 
is first and foremost in their mind. There are, of course, many 
who are trying to influence. I think Iran is trying to 
influence some. I think there is others, Syria and others, 
trying to influence as well. That is what makes Iraq so 
important, I think, in the long run.
    The Chairman. I certainly thank the gentleman.
    General Odierno, we thank you for your appearance, for your 
excellent testimony. We thank you for the service that you are 
rendering. You are making history in your leadership in Iraq 
for our country, and we thank you for that.
    I may also mention that all of us in this committee feel 
that the young men and young women in your command are making 
history as well. And when the final chapter of Iraq is written 
in our efforts there, I know full well that your name will be 
very, very prominent as well as all those young men and young 
women who have worked so hard and so professionally, and the 
families that we support, and we just can't thank them enough.
    So, General, thank you very much.
    Mr. Vickers, thank you for being with us.
    The hearing is adjourned.
    [Whereupon, at 12:34 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 30, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 30, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5277.001
    
    [GRAPHIC] [TIFF OMITTED] T5277.002
    
    [GRAPHIC] [TIFF OMITTED] T5277.003
    
    [GRAPHIC] [TIFF OMITTED] T5277.004
    
    [GRAPHIC] [TIFF OMITTED] T5277.005
    
    [GRAPHIC] [TIFF OMITTED] T5277.006
    
    [GRAPHIC] [TIFF OMITTED] T5277.007
    
    [GRAPHIC] [TIFF OMITTED] T5277.008
    
    [GRAPHIC] [TIFF OMITTED] T5277.009
    
    [GRAPHIC] [TIFF OMITTED] T5277.010
    
    [GRAPHIC] [TIFF OMITTED] T5277.011
    
    [GRAPHIC] [TIFF OMITTED] T5277.012
    
    [GRAPHIC] [TIFF OMITTED] T5277.013
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 30, 2009

=======================================================================

      
          RESPONSES TO QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    General Odierno. Throughout the Iraqi Theater of Operations 
contractor camps exist where provision of life support for employees is 
the responsibility of the contractor. However, every contract has 
differing provisions and levels of Government support for their 
personnel. All of our contracts require that every contractor will 
uphold both U.S. and local laws and require that the contractor 
complies with the CENTCOM and MNF--I regulations and living standards 
(as applicable).
    With regards to the contractor and specific contract in question, 
the U.S. Government provided: office space, dining facilities and 
water, medical care (contractor personnel shall be authorized medical 
care in emergencies to prevent loss of life, limb, or eyesight of any 
personnel/employee), MWR/PX/Fitness Center, electrical power, badges, 
ammunition storage, fuel (the Government will provide fuel access to 
all contract vehicles/generators that are used in direct support of the 
contract). [See page 41.]
    General Odierno. At the direction of the Multi-National Force--Iraq 
Commander and in coordination with the DOS, Task Force SAFE conducted 
an on-site investigation of Camp Olympia from September 3-7, 2009. The 
investigation found that improper bonding and grounding of electrical 
systems in Mr. Hermanson's billet combined with a faulty water heater 
element caused the metal pipes in the shower to be energized. Task 
Force SAFE found many of Camp Olympia's electrical facilities to be 
improperly bonded or ungrounded, and identified 1,031 immediate Life, 
Health, and Safety defects which were reported to Triple Canopy, and 
the Department of State Regional Security Office for immediate 
correction. Triple Canopy was issued a Cure Notice on September 4, 
2009, from Joint Contracting Command Iraq-Afghanistan directing them to 
take actions to repair the shortcomings identified by Task Force SAFE 
within 10 days. In response, Triple Canopy hired an electrical team 
comprised of local national and U.S. electricians led by a U.S. Master 
Electrician to make the necessary repairs. [See page 41.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 30, 2009

=======================================================================

      
                    QUESTION SUBMITTED BY MR. TURNER

    Mr. Turner. On January 10, 2007, President Bush ordered a ``surge'' 
of 20,000 additional soldiers, increasing the number to nearly 160,000 
U.S. forces in Iraq. During this time the Democrat leadership brought 
many resolutions and bills to the floor disapproving of the President's 
decision to increase the number of troops and demanding an immediate 
withdrawal from Iraq. On February 16, 2007, the House passed H.Con.Res. 
63 opposing this mission and on March 23, 2007, the House voted on H.R. 
1591 to remove all U.S. forces in Iraq by August 2008. According to the 
``Security Incidents'' chart provided in your written testimony, the 
number of potential and executed attacks decreased from approximately 
40,000 to approximately 25,000 during the end of 2006 through the end 
of 2007 coinciding with the ``surge'' of American troops. General 
Odierno, was the ``surge'' successful in combating the insurgents and 
decreasing the security threats in the region?
    General Odierno. Yes. The ``surge'' of forces in Iraq helped us to 
create the security environment that we have now, along with many other 
things. The ``surge'' was more than a surge of U.S. forces; it was a 
surge of ideas and represented a change in our tactics, techniques and 
procedures. It also consisted of integrating support led by the State 
Department which included embedded provincial reconstruction teams with 
our brigades. It was about an outreach program to the Sunni insurgents 
that allowed them to begin to reconcile and form the Sons of Iraq.
    It was about understanding what was causing the underlying impacts 
and using a combination of increase in troops, partnership with the 
State Department and engagement with former insurgents to enable 
security so the people and government of Iraq could build their 
capacities and develop a stable, democratic government.

                                  <all>

</pre></body></html>
